IMPROVEMENTS NEEDED IN THE
MOTOR CARRIER SAFETY STATUS
   MEASUREMENT SYSTEM
 Federal Motor Carrier Safety Administration
     Report Number: MH-2004-034
     Date Issued: February 13, 2004
           U.S. Department of
                                                   Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Audit Report on Improvements Needed               Date:    February 13, 2004
           in the Motor Carrier Safety Status Measurement
           System
           Federal Motor Carrier Safety Administration
           MH-2004-034

  From:    Alexis M. Stefani                                      Reply to
                                                                  Attn. of:   JA-40
           Principal Assistant Inspector General
             for Auditing and Evaluation

    To:    Federal Motor Carrier Safety Administrator

           This report presents the results of our audit of the Motor Carrier Safety Status
           Measurement System (SafeStat). An executive summary of the report follows this
           memorandum.

           Our objectives were to determine whether the:

           • SafeStat model is valid and whether the scores calculated are consistent with
             the model’s design.

           • data used by SafeStat are complete, consistent, accurate, and timely.

           • data quality control systems are adequate to ensure information quality for
             intended uses.

           We found that SafeStat generally calculated scores consistent with its design, and
           a 1998 study supported the model’s validity. However, the model needs to be
           revalidated because changes have occurred since the earlier study, and more
           sophisticated analysis, not previously conducted, would optimize the model’s
           effectiveness. Moreover, we found material weaknesses in the SafeStat data
           reported by states and motor carriers and with the Federal Motor Carrier Safety
           Administration’s (FMCSA) processes for correcting and disclosing data problems.
           Consequently, while SafeStat is sufficient for internal use, its continued public
           dissemination and external use require prompt corrective action. Improvements in
           the model are important, but getting better data is essential.
                                                                                   2

A draft of this report was provided to FMCSA on December 10, 2003. In its
comments, FMCSA agreed with our concerns for improving data quality and cited
a number of improvements already implemented or ongoing to address the
recommendations in the report. The improvements reported included:

• hiring a contractor to conduct a new study to revalidate the SafeStat model;

• implementing an improved system for tracking public challenges to the
  accuracy of SafeStat data;

• providing SafeStat users with comprehensive information on data limitations;

• assigning staff to review monthly state reports that address state data quality
  issues and to work with the states to resolve them;

• establishing goals for completeness, accuracy, and timeliness of data; and

• making state grant funding contingent on participation in certain data quality
  programs.

In commenting on the findings in the draft report, FMCSA did not agree with all
of our assertions as to the impact of data quality problems on SafeStat.
Specifically, FMCSA commented that the language in the draft report overstated
the problem of out-of-date census data on SafeStat. FMCSA also disagreed with
any implication in the report that some motor carriers who are categorized by
SafeStat as high risk, may be categorized as high-risk carriers only because of the
existing data problems.

We appreciate FMCSA’s positive response to our recommendations and have
revised the final report to recognize corrective actions that have been taken or that
are ongoing. We do not agree that the language in the draft report overstated the
problem with out-of-date census data, and we have provided additional
information on the issue in this final report.

On the question of whether some carriers may be categorized as high-risk only due
to the existing data quality problems, we agree with FMCSA that data quality
problems are more likely to make a high-risk carrier look good. However, we
continue to maintain that the opposite situation can also occur. Because SafeStat
scoring involves a relative ranking of one carrier against another, missing data
may place a lower-risk carrier in a deficient category because data for a higher-
risk carrier is not included in the calculation. Missing crash data were most
significant with six states failing to report any crashes for the 6 months analyzed.
Nationwide, estimates for the underreporting of large trucks involved in crashes
varied in magnitude with some states underreporting by 60 percent or more and
other states underreporting by less than 20 percent.
                                                                                    3

The existing data quality problems should not prevent FMCSA from using
SafeStat as an internal decisionmaking tool. However, while the data used for
SafeStat calculations are sufficient for internal purposes, if public dissemination of
SafeStat results is to continue, the data must meet higher standards for
completeness, accuracy, and timeliness.

We request that within 30 days FMCSA provide clarifications and target
completion dates for several planned actions, as noted in the attached report. In
instances where we are in agreement on the corrective actions and target
completion dates are provided, the recommendations are considered resolved
subject to the follow-up provisions of Department of Transportation Order
8000.1C.

We appreciate the courtesies and cooperation of representatives from FMCSA, the
Volpe Transportation Systems Center, state government offices, and motor carrier
companies during this audit. If you have any questions concerning this report,
please call me at (202) 366-1992 or Debra Ritt, Assistant Inspector General for
Surface and Maritime Programs, at (202) 493-0331.

Attachment

                                          #

cc: National Highway Traffic Safety Administrator
                            Executive Summary
                                   Improvements
                          Needed in the Motor Carrier
                     Safety Status Measurement System
                Federal Motor Carrier Safety Administration

Report No. MH-2004-034                                            February 13, 2004

INTRODUCTION
   Safety investigators from the Federal Motor Carrier Safety Administration
   (FMCSA) conduct compliance reviews to ensure motor carriers are following
   safety regulations. However, FMCSA is able to assess less than 2 percent of about
   650,000 active interstate motor carriers each year. To help select the motor
   carriers targeted for compliance reviews, FMCSA uses the Motor Carrier Safety
   Status Measurement System (SafeStat), an automated system for ranking motor
   carriers. The Volpe National Transportation Systems Center (Volpe) developed
   SafeStat in the mid-1990s.

   The public also has access to SafeStat. SafeStat results have been available to the
   public via the Internet since 1999. Thus, motor carriers, shippers, insurers, and
   other Government users have free access to SafeStat information when making
   business decisions.

   How SafeStat Works. When sufficient information from FMCSA’s database is
   available, SafeStat assigns motor carriers a percentile ranking between 0 and 100
   (with 100 being the worst) in one or more of the following four safety evaluation
   areas: accidents (crashes), driver, vehicle, and safety management. Carriers
   ranked in the 75th percentile or greater are considered deficient in an area.
   Carriers deficient in two or more areas are assigned an overall SafeStat score of
   150 to 550, based on the weighted accumulation of the percentile rankings. The
   relative weights assigned to each area are accidents 2.0; driver 1.5; vehicle 1.0;
   and safety management 1.0.

   Where SafeStat Data Come From. Key FMCSA data sources for calculating
   SafeStat rankings are:




   Executi ve Summar y                                                               i
  • periodic census reports that motor carriers submit to FMCSA, which include
    information on the number of drivers and vehicles (expressed as power units)
    used by the motor carrier;

  • police accident reports on crashes involving commercial vehicles;

  • state reports on vehicle and driver violations found during roadside safety
    inspections, which include serious moving traffic violations such as speeding;
    and

  • FMCSA compliance review and enforcement records on motor carriers.

  Uses of SafeStat. FMCSA uses SafeStat to identify and prioritize high-risk motor
  carriers for compliance reviews.1 FMCSA also uses SafeStat to generate warning
  letters advising carriers that continued performance problems may result in
  compliance reviews and potential state vehicle registration sanctions. Public uses
  for SafeStat include providing information to individuals making contract award
  or acquisition decisions and allowing carriers to assess their own safety strengths
  and weaknesses.

  Breakdown of SafeStat Results. Of 645,551 active interstate carriers on record2,
  in SafeStat, 26 percent or about 170,000 had sufficient data3 to compute a value
  for one or more of the four safety evaluation areas. Of the 170,000 carriers, 7,821
  were considered deficient; to the point they were classified as the riskiest carriers
  and placed in categories A, B, or C. Another 34,844 carriers, somewhat less
  deficient, were placed in categories D, E, F, or G. FMCSA field offices are
  directed to concentrate their compliance review efforts on category A and B
  carriers, which are considered the highest risk.

OBJECTIVES AND SCOPE
  This audit responds to a request from Representative Thomas E. Petri, Chairman
  of the House Transportation and Infrastructure Highways and Transit
  Subcommittee. Concerned about data issues as well as the SafeStat methodology,
  Chairman Petri requested that we review the reliability, validity, and objectivity of
  SafeStat. Specifically, our objectives were to determine whether the:



  1
      Federal and state safety investigators perform compliance reviews by examining motor carrier operations to
      determine whether motor carriers and their drivers meet safety requirements. Based on the results of a compliance
      review, FMCSA assigns carriers safety ratings of satisfactory, conditional, or unsatisfactory.
  2
      The breakdown of SafeStat results is based on January 2003 data. As of August 2003, 665,646 active motor carriers
      were on record in SafeStat.
  3
      One example of a data sufficiency rule is that carriers must have at least three inspections on record within the most
      recent 30 months to receive a value in the driver or vehicle areas.


  Executi ve Summar y                                                                                                    ii
  • SafeStat model is valid and whether the scores calculated are consistent with
    the model’s design.

  • data SafeStat uses are complete, timely, consistent, and accurate.

  • data quality control systems are adequate to ensure information quality for
    intended uses.

  In conducting the audit, we used data obtained from Department of Transportation
  organizations, selected motor carriers, and state offices. Our work included an
  assessment of information from a sample of crash and inspection reports obtained
  in 10 states.

RESULTS
  The SafeStat model generally calculated scores consistent with its design, and a
  1998 study supported the model’s validity. However, the model needs to be
  revalidated because changes have occurred since the earlier study, and more
  sophisticated analysis, not previously conducted, would optimize the model’s
  effectiveness. Moreover, we found material weaknesses in the SafeStat data
  reported by states and motor carriers and with FMCSA’s processes for correcting
  and disclosing data problems. Consequently, while SafeStat is sufficient for
  internal use, its continued public dissemination and external use require prompt
  corrective action. Improvements in the model are important, but getting better
  data is essential. Examples of problems with FMCSA’s database include:

  • The lack of updated census data for 42 percent of the 643,909 active carriers,
    and for 31 percent of the 170,623 carriers that had percentile values calculated
    in SafeStat for one or more of the four safety evaluation areas. (Census data
    include the current number of vehicles and drivers used by the companies.)

  • Recorded values of zero vehicles for approximately 11 percent of active
    carriers and zero drivers for 15 percent of active carriers even though many of
    these same carriers also had crashes or inspections reported against vehicles or
    drivers.

  • Missed reports for an estimated one-third of the large trucks involved in
    accidents annually, including 37,000 crashes involving interstate carriers.

  • Late reporting of 20 percent or about 19,000 of the crashes in Fiscal Year 2002
    by 6 or more months after the crashes occurred.




  Executi ve Summar y                                                            iii
• Underreporting of serious moving traffic violations (mainly speeding)
  identified during roadside inspections. In one state visited, an estimated
  29,000 serious moving traffic violations went uncounted over a 3-year period.

In addition, based on our tests of FMCSA’s database, we estimated that 13 percent
of the 21,000 crashes and 7 percent of the more than 1 million inspection
transactions occurring in our 6-month sample period contained carrier
identification errors, such as failure to identify a carrier associated with the
violation, or in a smaller number of instances, identifying the wrong carrier.

Problems with inaccurate data are compounded because no effective system is in
place now to facilitate the correction of errors in data reporting. Requests received
by FMCSA for state data correction are forwarded to the states where the incidents
occurred, and there is no system in place to centrally track the resolution of these
requests.

We recognize that FMCSA relies on state officials to generate and process much
of the safety event data used in SafeStat and that this presents many challenges for
obtaining complete, timely, and accurate data. However, as a result of weaknesses
in the data reported by states, SafeStat rankings are geographically biased against
carriers operating in states that provide more complete data, while weaknesses in
the data provided by carriers can produce errors in SafeStat calculations and cause
some high-risk carriers to be missed.

Thus, while SafeStat is sufficient for targeting compliance reviews and considered
valuable by internal users, its continued public dissemination and external use
require prompt and complete action to improve the model and improve the quality
of the data used. Because carrier safety data and the model’s rankings are publicly
disclosed, a higher standard of quality must be met to ensure fairness to motor
carriers who may lose business or be placed at a competitive disadvantage by
inaccurate SafeStat results.       FMCSA will need to demonstrate timely
improvements if it is to continue to publicly disclose carrier results across all
SafeStat categories.

Need to Revalidate the Model. FMCSA must act to revalidate the SafeStat
model because changes have occurred since a 1998 study that supported the
model’s validity. These changes include the addition of serious moving traffic
violations to SafeStat calculations, revised weighting of fatal accidents, and altered
methods for calculating the number of vehicles used by motor carriers. In
addition, while the general approach used in the 1998 study was acceptable, more
sophisticated analysis, not previously conducted, would optimize the model’s
effectiveness. Such analysis could determine the degree to which the weightings
used produced internally consistent results across all categories of carriers and



Executi ve Summar y                                                                iv
demonstrate the degree to which the weighting reflected the views of experts. It
could also test whether changes in the model would yield better predictive results.

Any future analysis should be conducted so that the results can be subject to
independent confirmation. We could not independently verify the 1998 study
because the data used were not available.

Data Quality Weaknesses. FMCSA should take action to improve data quality
because significant problems exist with the data motor carriers and the states
provide, and these data problems limit SafeStat’s effectiveness and introduce bias
into the ranking process. The most serious problems lie with outdated census data
on the number of vehicles and drivers used by motor carriers, incomplete crash
reporting from the states, and late or incomplete inspection reporting, particularly
reports on serious moving traffic violations. Specifically:

• Poor Carrier Census Data. SafeStat calculations use census data that motor
  carriers are required to complete and update every 2 years. SafeStat cannot
  effectively rank carriers without accurate and complete census information. In
  the worst case, carriers incorrectly shown on census records as having zero
  vehicles can have crashes, including fatalities, without it negatively impacting
  their SafeStat score. We found that:

          • About 272,000 or 42 percent of the active interstate motor carriers
            had not met the congressionally mandated requirement to update
            census data every 2 years, as of January 2003. This includes 23,919
            motor carriers on record without an update since coming on file in
            1974. It also includes 4,086 carriers identified in SafeStat as having
            2 or more accidents.

          • Approximately, 71,000 (11 percent) of the 643,909 active interstate
            carriers were on record in January 2003 as having “zero” power
            units and about 98,000 carriers or 15 percent of the 643,909 carriers
            were on record as having zero drivers. This included 15,136 carriers
            who had at least one inspection on record between October 2001 and
            September 2002. Getting good data on drivers and power units is
            important as these data are used frequently in SafeStat calculations.
            In January 2003, one or both of these data elements were used to
            calculate the SafeStat score for at least 74 percent of the category A
            carriers, the highest risk SafeStat category.

• Poor Crash Data. SafeStat calculations attach the greatest weight to crashes,
  because crash history is considered to be associated with future crash risks, but
  large gaps exist in how completely and timely states report crash data. For
  example:


Executi ve Summar y                                                               v
        • 6 of 51 states (including 2 of the 10 states we visited) did not report
          any crashes in the 6-month period we reviewed. The six states were
          the District of Columbia, Florida, New Hampshire, New Mexico,
          Pennsylvania, and Vermont. These six states constitute approximately
          11 percent of the total commercial vehicle miles traveled in 2002 and
          are home to an equivalent percentage of the active, interstate motor
          carriers in the nation.

        • 1 of the 10 states we reviewed reported only fatal crashes to FMCSA
          but failed to report 5,816 non-fatal large truck crashes from 2001 to
          the FMCSA database.

        • Meanwhile other states reported most crashes within 90 days.

   Such data variations across geographic locations indicate that FMCSA may fail
   to target certain high-risk carriers simply because of where they operate.

• Poor Data on Moving Traffic Violations. State reports on roadside inspections
  are supposed to include data on serious moving traffic violations, but often
  they do not. In addition, large state-to-state variations exist in the reporting of
  traffic violations, which introduce a degree of geographic bias in the ranking
  system. For example, California reported only 115 serious moving violations
  to the FMCSA database in FY 2001 compared to Indiana, which reported
  about 25,000. Although moving traffic violations are weighted less in SafeStat
  calculations than are crashes, these violations have been associated with higher
  crash rates. Thus, underreporting in this area reduces the effectiveness of
  SafeStat.

• Inaccurate Data Records. Even when crash and inspection data reach the
  FMCSA database, our review showed that errors or omissions occur during the
  process that could influence SafeStat scores. Based on a sample of FMCSA
  records, we estimate that errors occurred in approximately 13 percent (2,851 of
  21,225) of the crashes and 7 percent (76,521 of 1.02 million) of inspection
  transactions on interstate carriers during a 6-month sample period. A critical
  mistake that occurred in an estimated 11 percent (9,484 of 79,372) of the errors
  was that the wrong carrier was held accountable for a SafeStat-related
  violation. We cannot estimate the impact of such errors on SafeStat category
  rankings, but reasons for errors included the misinterpretation of reporting
  rules by local officials and data entry errors.

Improving Systems for Disclosing and Correcting Poor Data. Given the state
of data quality, FMCSA should improve processes for disclosing and correcting
data problems. Areas requiring specific improvement include:



Executi ve Summar y                                                               vi
• Insufficient Disclosure of Weaknesses in Publicly Disseminated Data. To
  mitigate problems posed by public dissemination of inaccurate data, FMCSA
  should ensure public users of SafeStat are aware of any known data quality
  weaknesses. In the past, the SafeStat Internet site pointed to problems with
  data provided by carriers, but did not disclose reporting problems with states.
  Following the issuance of our draft report, FMCSA placed a more
  comprehensive disclaimer on the Internet site, and promised to provide state-
  specific information in the future.

• Ineffective Systems for Facilitating Data Correction by the States. Motor
  carriers cannot easily correct inaccurate crash and inspection information in
  SafeStat because carriers must deal with individual states to obtain corrective
  actions. In addition, FMCSA maintains no data on the adjudication or
  timeliness of correction challenges and does not enforce existing requirements.
  FMCSA standards call for the correction of data inaccuracies within 7 days,
  but we have no evidence of this being enforced.

   Since we initiated our audit, FMCSA and Volpe have developed a prototype
   for a data quality tracking system to centrally accept and track data accuracy
   challenges that motor carriers make to the states. However, timely action is
   needed to complete testing and field the system. FMCSA expects to have the
   system operational by the end of February 2004. With SafeStat scores being
   calculated and released monthly, versus the earlier practice of releasing scores
   semiannually, a properly operating data correction process will enable errors to
   be corrected on a more timely basis.

• Insufficient Reviews of Data Quality. We found that states had limited controls
  to ensure the quality of data submitted to FMCSA. To catch many of the data
  problems we found, quality reviews should include assessments of source
  documentation to make sure data transmitted to FMCSA and used in SafeStat
  calculations are accurate. Compounding the lack of state controls, FMCSA did
  not routinely conduct its own oversight reviews targeted at control weaknesses
  in the states. One area ripe for such a review would be identifying and
  correcting reporting problems associated with serious moving traffic violations
  observed in conjunction with roadside inspections.

• Ineffective Use of Sanctions and Incentives. Overall, FMCSA has not
  effectively used existing sanctions and incentives to promote better data
  reporting by states and motor carriers. FMCSA has not imposed sanctions,
  such as the withholding of basic Motor Carrier Safety Assistance Program
  (MCSAP) grant funds from states for failing to correct data quality problems.
  Also, current MCSAP incentive grant formulas, while useful in theory, are not
  sufficient. As implemented, only the timeliness of data is factored into the


Executi ve Summar y                                                            vii
   incentive calculations, while completeness and accuracy of the data are
   ignored. Following the issuance of our draft report, FMCSA informed the
   states that certain grant funding would be contingent on participation in an
   improved system for tracking public challenges to the accuracy of SafeStat
   data.

• Slow Implementation of Joint Programs. Although the Motor Carrier Safety
  Improvement Act of 1999 directed FMCSA and the National Highway Traffic
  Safety Administration (NHTSA) to take action to improve the collection and
  analysis of state crash reporting, results have been slow to materialize. The
  agencies did not finalize a memorandum of understanding on the basic
  approach until February 2003. Encouragingly, since then the agencies have
  initiated a plan designed to bring about immediate improvement in the
  completeness of crash reporting for targeted states. Planned actions include
  reviews of how targeted states collect, store, and analyze crash data. Rapid
  implementation of the planned actions is needed and the plans should be
  extended to cover all states.

Correcting data quality problems are critical to ensure that SafeStat more
effectively targets high-risk carriers for compliance reviews. However, quick
action is even more important given the continued public dissemination of
SafeStat results. Department of Transportation (DOT) guidelines issued in
October 2002 underscore the need to apply stricter standards to “influential”
information, such as SafeStat data, that has a “clear and substantial impact on
important public policies or private sector decisions.” To implement this higher
standard, and thus ensure the continued public dissemination of SafeStat results,
FMCSA officials will need to implement an overall data program. The program
should include minimum standards for data completeness, timeliness, and
accuracy and make sure that those standards are met.

Summary of Recommendations. Although we support SafeStat’s use as an
internal risk management tool, continued public disclosure of the information
requires significant and timely actions to improve the system. Strong efforts are
needed to obtain better data from the states on crashes and inspections. Funding to
improve data reporting has been and continues to be provided to the states and
FMCSA should act to ensure that the funding brings about the desired results. We
have made the following recommendations to improve SafeStat.

First, FMCSA should revalidate the SafeStat model using a more sophisticated
analysis and solicit public comment on model changes.

Second, to mitigate the impact of inaccuracies or incomplete data on public users
of SafeStat, FMCSA should make available to all states, within 3 months of
issuance of this report, an improved system for facilitating the correction of data


Executi ve Summar y                                                            viii
inaccuracies and the tracking of corrective actions. The agency should also
expand the caution statements on the use of SafeStat recently placed on the
Internet to include state-specific information on data quality problems.

Third, FMCSA should detail the components of an overall data quality
improvement program that:

• Addresses longstanding issues associated with motor carrier census data by
  imposing fines on carriers that fail to provide updated carrier census
  information despite repeated opportunities to do so.

• Sets minimum standards for the quality of SafeStat data consistent with the
  Department’s data quality guidelines. At a minimum, the standards should
  address completeness, accuracy, and timeliness of data.

• Accomplishes actions planned, in conjunction with NHTSA, for improving the
  completeness and timeliness of state-reported crashes.

• Enhances the depth, frequency, and type of FMCSA state data quality reviews
  and monitoring, and ensures state plans address data quality.

• Modifies FMCSA guidance and funding decisions so that MCSAP incentive
  grant awards are based, in part, on each state’s implementation of guidelines
  established to provide accurate, complete, and timely safety event data.


MANAGEMENT COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided FMCSA a draft of this report December 10, 2003. In its comments,
FMCSA agreed with our concerns for improving data quality and cited a number
of improvements already implemented or ongoing to address the recommendations
in the report. The improvements reported included:

• hiring a contractor to conduct a new study to revalidate the SafeStat model;

• implementing an improved system for tracking public challenges to the
  accuracy of SafeStat data;

• providing SafeStat users with comprehensive information on data limitations;

• assigning staff to review monthly state reports that address state data quality
  issues and to work with the states to resolve them;

• establishing goals for completeness, accuracy, and timeliness of data; and


Executi ve Summar y                                                              ix
• making state grant funding contingent on participation in certain data quality
  programs.

In commenting on the findings in the draft report, FMCSA did not agree with all
of our assertions regarding the impact of data quality problems on SafeStat.
Specifically, FMCSA commented that the language in the draft report overstated
the problem of out-of-date census data on SafeStat. FMCSA also disagreed with
any implication in the report that some motor carriers SafeStat categorized as high
risk, may only be categorized as high-risk carriers because of the existing data
problems.

The full text of a matrix provided by FMCSA detailing corrective actions that
have been taken or that are ongoing is provided in the Appendix along with
FMCSA’s substantive comments on the draft report’s findings.

We appreciate FMCSA’s positive response to our recommendations and have
revised the final report to indicate the number of corrective actions that have been
taken or are underway. Although we did not agree that the problem with out-of-
date census data was overstated in the draft report, we provided additional
information on the issue in this final report to ensure the full context of the
problem is presented.

On the question of whether some carriers may be categorized as high risk only due
to the existing data quality problems, we agree with FMCSA that data quality
problems are more likely to make a high-risk carrier look good. However, we
continue to maintain that the opposite situation can also occur. Because SafeStat
scoring involves a relative ranking of one carrier against another, missing data
may place a carrier in a deficient category because data for a higher-risk carrier is
not included in the calculation. Missing crash data were most significant with six
states failing to report any crashes for the 6 months analyzed. Nationwide,
estimates for the underreporting of large trucks involved in crashes varied in
magnitude with some states underreporting by 60 percent or more and other states
underreporting by less than 20 percent.

The existing data quality problems should not prevent FMCSA from using
SafeStat as an internal decisionmaking tool. However, while the data used for
SafeStat calculations are sufficient for internal purposes, if public dissemination of
SafeStat results is to continue, the data must meet a higher standard.

Although FMCSA comments were generally responsive, we are requesting some
additional information. Specifically, we request that FMCSA clarify whether its
commitment to work with states to resolve data issues will include carrying out
our recommendation to ensure that state plans address data quality. We also
request that FMCSA clarify whether the review of source documentation proposed


Executi ve Summar y                                                                 x
will be a one-time or an ongoing task. FMCSA also needs to provide target dates
for several corrective actions, as noted in the body of the report.




Executi ve Summar y                                                         xi
                         TABLE OF CONTENTS

TRANSMITTAL MEMORANDUM
EXECUTIVE SUMMARY .........................................................................i
INTRODUCTION.....................................................................................1
    Background ........................................................................................1
    Objectives, Scope, and Methodology.................................................3
    Prior Audit Coverage ..........................................................................4
FINDINGS AND RECOMMENDATIONS................................................6
    Finding A. More Can Be Done to Confirm the Model's
    Validity and Maximize Its Effectiveness .............................................6
    Finding B. FMCSA Should Improve Key SafeStat Data
    Reported by States and Motor Carriers ...........................................13
EXHIBIT A. ACTIVITIES VISITED OR CONTACTED.........................35
EXHIBIT B. AUDIT METHODOLOGY .................................................37
EXHIBIT C. PRIOR AUDIT COVERAGE.............................................44
EXHIBIT D. MAJOR CONTRIBUTORS TO THIS REPORT ................46
APPENDIX. MANAGEMENT COMMENTS..........................................47
INTRODUCTION

                                             Background
The Federal Motor Carrier Safety Administration’s (FMCSA) primary mission is
to prevent commercial motor vehicle related fatalities and injuries. As of January
2003, FMCSA had approximately 643,000 active, interstate motor carriers on
record. The Motor Carrier Safety Status Measurement System (SafeStat) is an
automated system that measures the relative safety of motor carriers that operate in
interstate commerce and haul hazardous materials. FMCSA uses SafeStat to
identify and prioritize high-risk motor carriers for compliance reviews.1 FMCSA
also uses SafeStat to generate warning letters advising carriers that continued
performance problems may result in compliance reviews and potential state
vehicle registration sanctions. SafeStat is also part of a decision aid used by some
state safety inspectors for selecting vehicles for inspection. The Volpe National
Transportation Systems Center (Volpe) in Cambridge, Massachusetts, developed
SafeStat for FMCSA in the mid-1990s.

In SafeStat, motor carriers are evaluated in four areas: accidents (crashes), drivers,
vehicles, and safety management. Data sources for these areas are state-reported
crashes, roadside safety inspections of vehicles and drivers, serious moving traffic
violations, crashes and safety violations found during compliance reviews,
enforcement cases brought against motor carriers by FMCSA, and motor carrier
identification reports (census forms). Table 1 shows the data sources related to
each evaluation area.
             Table 1. SafeStat Safety Evaluation Areas and Data Sources
         Accident                       Driver                       Vehicle              Safety Management

State Reported Crashes,            Driver Roadside             Vehicle Roadside             Compliance Reviews
 Compliance Reviews,            Inspections (including          Inspections and           and Closed Enforcement
         and                      moving violations)          Compliance Reviews                   Cases
  Census Information           Census Information, and
                                 Compliance Reviews




1
    Federal and state safety investigators perform compliance reviews by examining motor carrier operations to
    determine whether motor carriers and their drivers meet safety requirements. Based on the results of a compliance
    review, FMCSA assigns carriers safety ratings of satisfactory, conditional, or unsatisfactory.


Introduction                                                                                                       1
Within each area, SafeStat categorizes carriers
into peer groupings based on the number of                                   Table 2. Peer Groupings for
                                                                              Accident Evaluation Area
safety events for which data are available, such
                                                                        Peer Group        Number of       Percentile
as the number of crashes (see Table 2).                                  Number            Crashes         Ranking
SafeStat assigns weights to more recent and                                  0                0               0
more serious safety events, such as crashes                                                                  Not
                                                                                                                   *
involving fatalities or injuries, and adjusts                                  1                1          Ranked
                                                                               2             2-3           0 - 100
computed values using factors such as the                                                                  0 - 100
                                                                               3             4-8
number of power units2 operated by the                                         4             9 - 20        0 - 100
carriers. Based on computed values, carriers                                   5            21 - 88        0 - 100
are ranked against other carriers within their                                 6              89+          0 - 100
peer group and are assigned a percentile.                               * SafeStat procedures state that carriers with
                                                                          only one crash are not considered to have
Percentiles are expressed from 0 to 100, with                             sufficient data to calculate a score and are
100 being the worst.                                                      not ranked in SafeStat.

SafeStat assigns percentiles to a carrier in areas where the minimum number of
safety event data are available. The minimum values include at least two crashes
and at least three roadside inspections in the previous 30 months. Only carriers
with percentiles of 75 or greater in two or more areas receive a SafeStat score.
The maximum possible score is 550, computed based on weights for each of the
four evaluation areas. The accident and driver areas received the highest weights.
FMCSA’s field offices are directed to concentrate on conducting compliance
reviews of motor carriers with                Table 3. SafeStat Category Scoring
SafeStat scores in the top two
                                         Category      SafeStat Score/Percentile Range
categories—A (a score equal to or
greater than 350) and B (a score             A        > 350 to < 550
equal to or greater than 225 but less        B        > 225 to < 350
than 350). Additionally, categories          C        > 150 to <225
D, E, F, and G include carriers              D        Accident Area > 75 to 100 Percent
assigned a deficient percentile value        E        Vehicle Area > 75 to 100 Percent
in only one area (see Table 3).              F        Driver Area > 75 to 100 Percent
                                                               G            Safety Area > 75 to 100 Percent
In January 2003, SafeStat scored
7,821 (or 1.21 percent) motor carriers out of a possible 645,551 motor carriers.
Another 34,844 carriers, somewhat less deficient, were placed in categories D, E,
F, or G. FMCSA field offices are directed to concentrate on category A and B
carriers first when conducting compliance reviews, as these are considered to be
the highest risk. However, not all motor carriers had sufficient data to compute a
value for one or more of the four safety evaluation areas. For example, in January
2003, about 170,000 (or 25 percent) carriers had percentile values calculated for
one or more evaluation areas. SafeStat information, including a carrier's score,

2
    The number of power units is defined by the total number of trucks, tractors, hazardous material tank trucks, motor
    coaches, school buses, minibuses/vans and limousines that a carrier owns or leases.


Introduction                                                                                                         2
percentile, value and rating in each area, and information on specific safety events
used in the calculation, such as crashes and inspections, is available to the public
on an Internet site maintained by Volpe. The Internet site contains specific carrier
information, such as the reported number of vehicles and drivers, address, and any
violations found in the latest FMCSA compliance review. The site also includes
event-specific information, such as the date, time, and location of an accident; the
number of injuries and fatalities involved; the age and condition of the driver; the
vehicle license plate and identification number; and information on any hazardous
materials released.

The Internet site has been publicly available since December 1999 and accessed as
many as 80,000 times a month. In January 2003, SafeStat began making monthly,
instead of semiannual, runs and postings to the Internet site. Public access to data
allows carriers and the firms involved with carriers, such as shippers, insurers, and
lessors, to use SafeStat information when making business decisions.
Consequently, the reliability of SafeStat information is important because it can
have an economic impact on motor carriers.


           Objectives, Scope, and Methodology
This audit responds to a request from Representative Thomas E. Petri, Chairman
of the House Transportation and Infrastructure Highways and Transit
Subcommittee. Chairman Petri’s request stated, “. . .while the goal of SafeStat is
correct, there are continuing concerns regarding data issues as well as the validity
and objectivity of the SafeStat methodology.” Our overall objective was to
determine whether SafeStat reliably identifies high-risk carriers. Specifically, we
determined whether the:

• SafeStat model is valid and whether the scores calculated are consistent with
  the model’s design.

• data SafeStat uses are complete, timely, consistent, and accurate.

• data quality control systems are adequate to ensure information quality for
  intended uses.

To form conclusions on the quality of data used in SafeStat and to make
nationwide projections, we used data obtained from DOT organizations, selected
motor carriers, and state offices. We conducted two-stage statistical sampling in
which we selected 10 states for review, then selected crash and inspection reports
on interstate carriers for examination from those 10 states.




Introduction                                                                       3
We also used additional reports and data generated by FMCSA, the National
Highway Traffic Safety Administration (NHTSA), and selected motor carriers
from FY 1999 through FY 2002 in our analysis of data consistency and trends.

We evaluated the validity of SafeStat by discussing the basis for the model with its
developers at Volpe, reviewing relevant documentation related to SafeStat’s
original development, and consulting with technical experts on the requirements
for demonstrating model validity and on the statistical tools used to develop valid
and unbiased models. Additionally, to determine whether scores calculated and
posted on the Internet were consistent with the SafeStat algorithm, we recalculated
scores assigned to a random sample of 65 carriers during the January 26, 2003
SafeStat run. Our efforts to confirm         States Visited Based on Statistical Sampling
the    model's     validity   and     its
effectiveness in putting potential             California            Montana
                                               Georgia               New Mexico
unsafe carriers in proper categories           Illinois              Pennsylvania
were limited because data from 1993 to         Indiana               Texas
1996 used in a 1998 study of the               Louisiana             Washington
model’s effectiveness were not available for our independent assessment of the
simulated scores assigned to carriers. We did assess the methodology employed in
the 1998 study.

To determine whether FMCSA’s data quality control systems were adequate for
their intended uses, we reviewed guidelines issued by the Department of
Transportation (DOT) on the dissemination of data and compared the guidelines to
systems in place or planned by FMCSA. We also observed quality control
systems at the states visited and assessed selected areas, such as data entry
controls. A list of activities visited or contacted is in Exhibit A.

The audit was conducted from November 2002 through January 2004 in
accordance with Government Auditing Standards prescribed by the Comptroller
General of the United States and included such tests of internal controls as were
considered necessary. Further details on the audit methodology are in Exhibit B.


                          Prior Audit Coverage
One Office of Inspector General audit in 1999 and two General Accounting Office
(GAO) audits, noted below, have addressed topics related to SafeStat. Details on
the prior audits are in Exhibit C.

OIG Report: Motor Carrier Safety Program, Federal Highway Administration,
Report Number TR-1999-091, April 26, 1999.




Introduction                                                                           4
GAO Report: Truck Safety: Motor Carriers Office Hampered by Limited
Information On Causes of Crashes and Other Data Problems, RCED-99-182,
June 29, 1999.

GAO Report: Commercial Motor Carriers: DOT is Shifting to Performance–
Based Standards to Assess Whether Carriers Operate Safely, RCED-98-8,
November 3, 1997.




Introduction                                                        5
FINDINGS AND RECOMMENDATIONS

   Finding A. More Can Be Done to Confirm the
  Model's Validity and Maximize Its Effectiveness
We verified that the scores produced by SafeStat generally are consistent with the
model’s design; and views of current users support the validity of the model. A
1998 study also supported the model’s validity and an assessment of compliance
review results shows SafeStat’s ability to identify some high-risk carriers.
However, changes have occurred since the 1998 study, and our attempts to
confirm the results from the 1998 study were limited because data used in the
study were not available. While the general approach used in the study was
acceptable, a more sophisticated analysis, not previously conducted, would
optimize the model’s effectiveness. Moreover, further analysis, which expands on
the previous study, should be done to determine the degree to which variations in
the model, such as different treatment of exposure and weighting factors, would
yield better results.


SafeStat Scores Generally Consistent with the Algorithm
Our recalculation of SafeStat scores across evaluation areas using randomly
selected carriers showed that computer generated scores posted on the Internet
were, with one exception, consistent with the algorithm used to calculate the
scores. We determined this by recalculating carriers’ scores in 13 different peer
groups and 2 evaluation areas using SafeStat’s stated methodology.

Although SafeStat’s calculations generally were performed as intended, we noted
one exception. The January 26, 2003 SafeStat run showed that the calculation for
determining average power units over several time periods did not work correctly
for 71 of 17,260 motor carriers. This error related to carriers with one or more
power units in the current period and zero power units in prior periods. The error
occurred because insufficient computer programming was done when SafeStat
data were converted to a new database in September 2002.

As a result of this programming error, no SafeStat value could be computed in the
accident area for the 71 carriers because of the incorrect computation of the
average number of power units, which is used in the calculation of the accident
value. Using the SafeStat model, Volpe staff estimated that 7 of the 71 carriers
should have been categorized as A or B, the categories reserved for the highest
risk carriers on SafeStat's January 2003 list. Volpe and FMCSA officials took


Findings and Recommendations                                                    6
action to correct this programming error when we brought it to their attention in
February 2003.


Current Users’ Views and Assessment of Compliance Review
Results Support Use of SafeStat
Government users of SafeStat generally view it as an effective tool. In the
10 states reviewed, both Federal and state motor carrier officials expressed
confidence in SafeStat's ability to identify high-risk carriers and considered it a
significant improvement over a prior system for selecting carriers for compliance
reviews. Furthermore, representatives of a committee from the trucking industry,
who expressed serious concerns about the SafeStat model, also agreed the model
was an advance over an earlier system that identified carriers for compliance
reviews.

Results of compliance reviews support the views of users as to SafeStat’s ability to
identify high-risk carriers. About 34 percent of the 3,815 carriers placed in the top
three risk categories of SafeStat in March 2002 subsequently had compliance
reviews and received less than satisfactory ratings. The higher the SafeStat score
the greater was the likelihood that a carrier received a less than satisfactory
compliance review.3 Carriers that SafeStat rated in the highest category (A) had
less than satisfactory ratings 40.4 percent of the time while those in the next
highest risk category (B) had less than satisfactory ratings 36.1 percent of the time.
Carriers in the lowest risk category (C) had less than satisfactory ratings 27.4
percent of the time. The data show SafeStat’s ability to identify some high-risk
carriers and support SafeStat’s use as an internal decisionmaking tool.


A Range of User Views Were Considered in Model Development
Although Certain Standard Statistical Tools Were not Used
Historical data on the model show that during its development in the 1990s,
SafeStat concepts and methodology were based on expert opinions of
stakeholders, solicited by the model's developers during a series of meetings. The
participants in those meetings were individuals from state and Federal
governments, trucking associations, insurance companies, shippers and consumer
safety groups.



3
    The preferred analysis would be to compare compliance reviews for carriers selected by SafeStat against a group of
    carriers selected for compliance reviews at random. However, no large group of compliance reviews done at random
    was available. The vast majority of compliance reviews that are not done because of SafeStat ratings are conducted
    based on complaints or reported violations, or done at the request of carriers who have already received a compliance
    review and requested a follow-up review.


Findings and Recommendations                                                                                          7
During these meetings stakeholders listed the most important safety fitness criteria
and were asked to rank order the choices. In many of their lists, accidents, vehicle
maintenance, and driver conduct were included as important safety criteria. Top
ranked measures cited included the preventable accident rate, equipment out-of-
service rate and driver out-of-service rate. Stakeholders also listed safety
management as a lesser issue. Additionally, they expressed concern about data
quality, suggesting that a sampling program to test accident data and inspection
reports would be useful.

Although SafeStat’s original development effort considered the views of industry
stakeholders, such views have not been solicited for subsequent changes, such as
those affecting how power unit numbers are calculated. FMCSA needs to ensure
that industry and other members of the public are provided the opportunity to
comment on proposed changes to SafeStat. Comments on model changes could be
received using an on-line feedback system now in place on the Internet site.

While FMCSA consulted users during model development, such views are not a
substitute for rigorous testing during model development.              During the
development of the SafeStat model, its developers did not use statistical tools to
validate the weights in the SafeStat model, even though this is a standard practice
in model development. Volpe’s analysis of the weighting and normalization
schemes in SafeStat has been limited to determining how changes affect the
stability of the model. Such analysis determines whether changes in one safety
event cause a dramatic change in a carrier’s score, and thus cause an unstable
model.

During meetings held during the model’s development, FMCSA and stakeholders
discussed the general use of weighting and normalization4 factors, but they did not
discuss specific formulas. An expert we consulted opined that, while the use of
rank order choices at such stakeholders meeting is a recognized tool for
determining the relative strength of measures, this information should be used in
conjunction with other statistical tools to determine the relative importance or
value of the indicators developed for the SafeStat model.

More rigorous testing could determine, for example, whether the weighting
assigned to crashes produced internally consistent results across all categories of
carriers. It could also assess the consistency of rankings under various raw scores
and the impact of incomplete and untimely data. In the absence of such tests
conducted during the model’s development, our expert concluded that an approach
used by Volpe in a 1998 study would serve as an alternative method for assessing


4
    Normalization is a method of adjusting safety scores so that carriers of dissimilar sizes can be compared on a more
    equal basis.


Findings and Recommendations                                                                                        8
the model; however, improvements should be made in the approach used
previously.


1998 Study Shows High-Risk Carriers Identified, but Work
Needed to Maximize Model’s Effectiveness
In the 1998 study, Volpe examined SafeStat's crash rate prediction capability as a
"bottom line" test to confirm that SafeStat identified high-risk carriers. According
to Volpe, the study was conducted using carriers’ historical data from October
1993 through April 1996 to calculate simulated SafeStat scores.5 Such an attempt
to measure a model’s forecast accuracy is an acceptable approach to model testing
used in other fields. It was also a feasible approach at the time because Volpe had
historical safety data available for analysis that was uninfluenced by decisions on
compliance review assignments.

Volpe analyzed carrier crashes for the 18 months subsequent to April 1996 for
three groups—those having the highest safety risk, those with a lesser safety risk,
and those with sufficient data, under SafeStat criteria, but not considered a risk.6
The number of crashes attributed to each carrier in the period after April 1996 was
weighted based on severity and time factors. In addition, weighted crash values
were converted into rates using the number of power units per carrier.

The published results in the effectiveness study supported the validity of SafeStat.
Specifically, the weighted crash rate for the riskiest carriers was 169 percent
higher than the rate for the least risky. Further, carriers that SafeStat identified in
the two groups with the highest safety risk also had an 85-percent higher crash rate
in the monitoring period than the carriers that SafeStat did not identify as having a
high risk.

This analysis is convincing, but it needs to be updated to assess the current
effectiveness of SafeStat for two reasons. First, changes have been made to
SafeStat including the addition of serious moving traffic violations, revised
weighting of fatal accidents, and altered methods of calculating average power
units. Secondly, we could not validate the calculations made in the 1998 study
because the original data used in the study were not available.

In addition, while the general approach used in the 1998 study was acceptable,
more sophisticated analysis, not previously conducted, would optimize the
model’s effectiveness. Such analysis could determine the degree to which the
weightings used produced internally consistent results across all categories of

5
    Simulated scores were used because SafeStat was not implemented until 1995.
6
    Some carriers did not have sufficient data under SafeStat criteria, such as at least two crashes, and in these cases no
    SafeStat score was calculated.


Findings and Recommendations                                                                                            9
carriers and demonstrate the degree to which the weightings reflected the views of
experts. It could also test whether changes in the model would yield better
predictive results.

For example, such tests of the models predictive ability could address concerns
raised by the trucking industry about whether power units or vehicle miles traveled
are a better normalization factor for adjusting scores in the accident area. Both
factors are used in SafeStat to some degree but power units are used most often.7
Some motor carriers have argued that the use of vehicle miles traveled are a better
measure of exposure to crashes; thus, those computations should be used to a
greater degree for the accident measure calculations involving state reported
crashes.

Similarly, such tests could address whether the use of team drivers should be a
factor in SafeStat scoring. A motor carrier suggested that any power unit that is
operated by a driving team should be counted differently from power units
operated by a single driver. This is the practice for a system used in Canada for
assigning safety ratings. In that system, the calculation of fleet size is adjusted
upwards if vehicles are driven by teams. Such adjustments impact the calculation
of the number of accidents per vehicle, and therefore, could also change SafeStat
rankings in the accident area.

The revised analysis could also address the impact of relevant information on data
quality or availability. Volpe’s 1998 study assumed that state-reported crashes
represented an unbiased sample of crash data, although acknowledging that some
crashes were missing from the database. Given the geographic bias we found in
the reporting of crashes, as discussed in Finding B, this assumption is
questionable. If the data quality issues noted cannot be readily corrected, then the
model should be modified, where possible, to reduce the chances for missing high-
risk carriers because of bias in the reporting of certain data. For example, FMCSA
could change the criteria used to evaluate the relative safety risk of carriers who
predominately operate in locations where data are not complete. FMCSA already
adjusts the deficiency threshold for hazardous material carriers from the 75th to
the 70th percentile based on the desire to provide greater scrutiny for this type of
carrier. The same concept could be used with regard to states or regions with data
reporting problems.

Additional analysis can also point to the value of obtaining more complete data.
For instance, expanded use of vehicle miles traveled as an exposure indicator,
even if theoretically desirable, would be impractical at this time because 524,182

7
    Vehicle miles traveled are used in SafeStat for calculating the recordable accident indicator. This indicator is one of
    two calculations that may be used for determining a carrier ranking in the accident area. The other indicator, used
    more often, is based on power units.


Findings and Recommendations                                                                                          10
or about 81 percent of active, interstate motor carriers, as of January 8, 2003
reported no data to the FMCSA database on vehicle miles traveled. Further
assessment of the model could determine the value of increasing efforts to collect
the data.

FMCSA officials reported that an independent analysis contractor has been hired
to revalidate the SafeStat model. Additionally, FMCSA’s FY 2005 Budget
Estimate includes funding to test the assumption that SafeStat scores are a
predictor of crash involvement for all commercial carriers.


RECOMMENDATIONS
We recommend that the Federal Motor Carrier Safety Administrator:

A1. Initiate an effectiveness study of the current model that tests the model’s
key parameters, assesses possible model adjustments to account for missing data,
and evaluates whether the use of vehicle miles traveled or adjustments for team
drivers would improve SafeStat calculations. The results of the study should be
subjected to independent review by a party outside of Volpe.

A2. Establish processes for soliciting public comment on proposed changes in
SafeStat calculations, to include those changes, if any, resulting from the revised
effectiveness study.


MANAGEMENT COMMENTS AND OFFICE OF INSPECTOR
GENERAL RESPONSE
We provided a draft of this report to FMCSA on December 10, 2003. In its
comments, FMCSA cited a number of improvements already implemented or
ongoing to address the recommendations in the report. FMCSA comments on
Finding A and our response to those comments are summarized below. The full
text of a matrix that FMCSA provided detailing actions planned or underway,
along with significant FMCSA comments on the draft report findings, are
provided in the Appendix to this report.

In response to Recommendation A1, FMCSA stated that an independent
contractor has been hired to revalidate the SafeStat model, and the study should
begin in early 2004. In response to Recommendation A2, FMCSA stated that it
believes an effective public comment process is already in place on the SafeStat
Internet site and that the majority of the changes to SafeStat have originated from
industry and other stakeholder feedback. FMCSA will explore the feasibility of



Findings and Recommendations                                                    11
using the existing feedback mechanism to solicit public comment on proposed
changes.

We consider the planned actions to be responsive to the recommendations;
however, target completion dates are needed for completing the revalidation study
and for determining the feasibility of changes in the existing feedback mechanism
on the Internet that would allow the solicitation of public comment on proposed
changes. We request that FMCSA provide a written response with this
information within 30 days.




Findings and Recommendations                                                  12
 Finding B. FMCSA Should Improve Key SafeStat
    Data Reported by States and Motor Carriers
We found that compliance reviews and enforcement data generally were reflected
in SafeStat calculations in an accurate and timely manner; but problems occurred
with data derived from motor carrier census forms and state-reported crashes and
roadside inspections. Problems included out-of-date and unreliable carrier
information, incomplete data on crashes and
serious moving traffic violations, untimely             Data Sources For
reporting of crash and inspection data, and errors           SafeStat
in the crash and inspection reporting process that
                                                    • Federal safety violations
prevented the proper inclusion of some safety          and crashes from over
events in SafeStat scores.                             11,000 annual compliance
                                                           reviews
When motor carriers and the states provide
insufficient data it creates an unknown degree of      •   Federal safety violations
bias in SafeStat’s ranking of motor carriers and           from closed enforcement
limits SafeStat’s effectiveness as a tool for              cases
identifying high-risk carriers.       As a result,     •   Census information from
FMCSA cannot be sure it is focusing its resources          643,000 motor carriers
for compliance reviews on carriers with the
highest risk. Moreover, as data quality varies         •   State-reported crashes-
significantly by state and by region, FMCSA may            100,000 a year
fail to target certain high-risk carriers because of   •   State-reported inspections-
where they operate.         Additionally, missing,         2.5 million a year with
incomplete, or untimely safety event data may              240,000 serious moving
cause public Internet users, who rely on specific          traffic violations
rankings, to make incorrect decisions.

Data were deficient because effective control systems and quality standards were
not in place at the Federal and state levels to provide reasonable assurance of data
quality and to correct data inaccuracies. FMCSA has undertaken a number of
actions to address data quality issues and to respond to the DOT Data Quality
Guidelines issued in October 2002. However, timely and complete corrective
actions are needed to improve carrier reporting of current census data and to
obtain more complete and timely data from states on crashes and inspections.
Data improvements are important given the influential nature of SafeStat
information and the stricter treatment of such publicly disseminated data called for
in the October 2002 guidelines.



Findings and Recommendations                                                           13
Motor Carriers Not Providing Current and Reliable Census Data
Used in SafeStat
The Motor Carrier Safety Improvement Act (MCSIA) of 1999 required interstate
motor carriers to periodically update their identification report (census forms) filed
with FMCSA, but many still do not. Under FMCSA rules, motor carriers that
were active on December 2000, should have filed an updated census report no
later than December 31, 2002. However, according to FMCSA’s Motor Carrier
Management Information System,8 as of January 2003, approximately 272,000 (or
42 percent) of the 643,909 active carriers had not done so. By our calculation this
included 31 percent of about 170,000 carriers that had percentile values calculated
in SafeStat for one or more of the four safety evaluation areas. For example, there
were:

• 23,919 motor carriers, still active as of January 2003, that had not updated their
  records since 1974, such as one carrier with 45 roadside inspections on record
  and 6 accidents—4 with injuries—involving 6 different power units;

• 2,932 (17 percent) of 17,514 motor carriers with 2 or more crashes over a
  recent 30-month period; and

• 6,279 (20 percent) of 30,901 motor carriers with 3 or more serious moving
  traffic violations over the same 30 months.

In addition to not updating census information, carriers erroneously claimed that
“zero” drivers or power units were in use. Overall:

• About 98,000 carriers or 15 percent of the 643,909 active carriers were on
  record as having zero drivers. This number includes about 26,000 carriers that
  updated the information, but still provided unreliable driver data, and 15,136
  carriers with at least one inspection on record from October 2001 through
  September 2002, even though the company had no drivers.

• In January 2003, approximately 71,000 (11 percent) of the 643,909 active
  interstate carriers were on record as having “zero” power units—an
  improvement over levels FMCSA reported in 1999. At that time 24 percent of
  the carriers showed similar data. The reporting of “zero” power units still
  occurs in more than 1 in 10 motor carriers.

Accurate census data are important because information on power units and the
number of drivers a carrier has are used for deriving SafeStat scores for a
significant number of high-risk carriers. For example:

8
    The Motor Carrier Management Information System is the name given to the database managed by FMCSA from
    which data used for SafeStat calculations are drawn. The data analyzed were current as of January 2003.


Findings and Recommendations                                                                           14
• In January 2003, each of the 506 carriers in the highest risk category (A) were
  rated deficient in the accident area, the highest weighted evaluation area. For
  376 (or 74 percent) of these carriers, the accident area calculation was based on
  power units.9 An alternative measure—vehicle miles traveled—was used in
  the remaining 26 percent.

• Of the category A carriers ranked by SafeStat in January 2003, about 11
  percent used data on the number of drivers in the calculations.

Inaccurate and unreliable census information can skew SafeStat calculations,
particularly when data show zero drivers or power units, because SafeStat
calculations are invalidated when zero values are present.10 As a result, motor
carriers can show crashes on record, including fatalities, but receive no SafeStat
value in the accident area. For example, our analysis of the January 26, 2003
SafeStat run identified 391 carriers that had two or more crashes, but for which an
accident area value was not calculated because the power unit data were recorded
as a zero or a null (blank) value. One of the carriers had 21 crashes, but received
no SafeStat value.

Biennial Update Requirements Not Enforced. FMCSA has promulgated rules,
established in November 2000, to require carriers to update their census forms on
a biennial basis, but has not sufficiently enforced them. Although FMCSA's
regulation states that fines of up to $500 for each offense can be levied for failure
to update carrier census forms, we found only one recorded case of enforcement of
a fine related to a census form. FMCSA has undertaken a letter campaign to
persuade carriers to comply with the reporting requirements. However, FMCSA
management reports that would identify carriers, by state, with zero power units,
and thus promote better enforcement of reporting requirements, were discontinued
when a new FMCSA database was implemented in September 2002.

In our opinion, FMCSA must initiate an active program to correct the census data
problem, including enforcing fines or penalties for failure to comply with biennial
requirements to update carrier census information and targeting carriers reporting
zero power units or drivers for special attention. Such efforts can improve the
quality of data in SafeStat and reduce bias imposed by insufficient census data.
Stronger actions could also include initiating a more vigorous letter enforcement
campaign and, if carriers ignore repeat reminders, setting default values to one for
zero values reported for vehicle and driver safety data. This would increase the
likelihood of carriers receiving a high SafeStat score and a subsequent compliance
review, and thus promote fuller compliance. But it would also introduce possibly
9
  The number of power units is defined by the total number of trucks, tractors, hazardous material tank trucks, motor
   coaches, school buses, minibuses/vans, and limousines that are owned or leased by a carrier.
10
   Because the number of drivers and power units is used as a divisor in the calculations, values cannot be computed
   using “zero” or blank data.


Findings and Recommendations                                                                                     15
erroneous data into the system. An assessment of non-responding carriers would
be needed to determine if this action was warranted.

State-Reported Crash Data are Incomplete and Untimely
Adding to the data problems created by insufficient census data is significant crash
information also missing from the states. Overall, FMCSA’s own estimates are
that data on one in three large trucks involved in a Federal reportable11 crash are
missing from FMCSA’s Motor Carrier Management Information System. This
estimate, using FY 2001 data, is based on a probability-based nationally
representative sample of crashes, as well as actual reports provided to FMCSA and
to the Fatality Analysis Reporting System in NHTSA. In our estimate12 37,000
large trucks missing from the crash reports are involved in interstate commerce.

Our analysis of data from all states for the July 1 through December 31, 2002
period,13 and our visits to 10 states showed significant gaps in crash reporting by
the states. For example:

• 6 of 51 states did not report any crashes to FMCSA in the 6-month period.
  This included 2 of the 10 states we visited.14 New Mexico had not uploaded
  any crashes for the previous 6 months while Pennsylvania had an estimated
  18,000 crash reports waiting to be entered into its data system from the
  previous year.

• In another state we visited, although fatal large truck crashes were reported to
  FMCSA, 5,816 non-fatal large truck crashes from 2001 had not yet been
  uploaded to the FMCSA database as of January 2003. State officials planned
  to enter that data in the future.

Our review of crash data reporting showed variations in underreporting across
states for all crashes involving commercial vehicles, and reporting problems
specific to fatal crashes.

Variations in Underreporting of Crashes. The underreporting of crashes is
widespread but varies in severity across states. Figure 1 shows underreporting
estimates by states in 2001. States shown in red did not report at least 60 out of
every 100 large trucks involved in reportable crashes, while states shown in green
reported at least 80 percent. Averaging the variation by region shows that if a
carrier operated in the southern region, there was about a 50-percent chance that a
11
     Federal reportable crashes are those with a fatality, an injury, or a tow away because of disabling damage to a
     vehicle involved in the crash.
12
     This estimate is based on reported levels of crashes involving intrastate and interstate carriers as of January 2003.
13
     Data as of January 8, 2003.
14
     The six states not reporting any crashes in the last 6 months of 2002 were the District of Columbia, Florida, New
     Hampshire, New Mexico, Pennsylvania, and Vermont.


Findings and Recommendations                                                                                         16
state did not report a large truck involved in a crash versus a 20-percent chance if a
carrier operated in the mid-west region. Thus, based on the data for 2001, there is
a greater chance in the southern region that a large truck involved in a crash will
not be reported to FMCSA than in the mid-west region.
               Figure 1. Estimate of Underreporting of Large Trucks
                      Involved in Crashes by State (2001 Data)




              Green: Less than 20 percent Light Blue: 20 to 39 percent : Dark Blue 40 to 59 percent
                                             Red: 60 to 100 percent

Underreporting of Fatal Crashes. Fatal crashes alone also indicate significant
underreporting and variations across states. Using November 2002 data, FMCSA
identified 1,031 of 4,853 fatal large truck and bus crashes in NHTSA’s database
that were missing from FMCSA’s database used for SafeStat. The largest number
of crashes not matched was in the southern and western regions with 444 in the
southern region and 239 in the western region. In addition, 425 or 41 percent of
the unmatched crashes occurred in four states—California, Florida, Tennessee,
and Texas.

Problems with Timeliness of Crash Reporting. Significant delays in the
reporting of crashes will influence SafeStat calculations as crashes occurring
within the most recent 6 months are weighted more severely than those from the
previous 7 to 30 months. FMCSA has established a 90-day standard for crash
reporting, but the agency’s quarterly reports show difficulties in meeting this
standard. The time it takes to add or upload a crash report to the FMCSA database
has varied from 165 days in 1999 to 106 days in 2002. Our analysis of crashes on
record for FY 2002 showed that about 18,000 or 20 percent of crashes that were
reported in the 12-month period were entered into the database 6 months or more
after the crash occurred.

In addition, average figures across the nation do not provide a complete picture
because variations in the reporting times across the states are also a problem. Our
analysis of a 4-year period (FY 1999 through FY 2002) indicates the variation in




Findings and Recommendations                                                                          17
reporting across states and shows how improving specific problem states could
affect overall averages.

• As of November 2002, crash reports in FY 2002 were uploaded on an overall
  average of 103 days. However, 4 states averaged over 200 days while 20 states
  averaged less than 75 days.

• Decreasing the average reporting time for crashes in 6 to 8 states with slow
  reporting times could improve the overall reporting time by 22 percent.

If data were consistently late across all states, the impact on SafeStat would be
minimal because each carrier’s SafeStat calculations would be equally impacted,
no matter where the carrier operated. Geographical bias is introduced in the
rankings to the degree to which untimely data varies from place to place. Some
variation would be expected, but a statistical analysis shows high variation in
reporting times across states. The reporting variation across states or regions can
be expressed statistically through the use of the coefficient of variation, a basic
measure of dispersion, expressed as a number between 1 and 100. A standard or
normal distribution has a value of 25.15 For crashes we analyzed, the coefficient
of variation over the 4-year period evaluated was more than 70, indicating that the
data had a high variation. (For more details on this analysis, see Exhibit B.)
Given the gaps and delays in the state reporting of crash information and the
variations across states, we concluded that SafeStat calculations regarding crashes
will be impacted by the location of a carrier’s operations.

Impact of Incomplete Crash Reporting on SafeStat. How much impact could
one or two missing crashes make in a SafeStat score? Although we cannot specify
the impact of “missing data,” we can help visualize the potential impact by
addressing how adding only a small number of crashes to a carrier record can
influence SafeStat peer group and percentile calculations. Table 4 shows the
number of reported crashes by peer group in January 2003 and the weighted16
accident value that corresponds to the 75th percentile cutoff point, the point at
which a carrier is considered a high risk in a particular area.17




15
     The coefficient of variation is obtained by dividing the standard deviation by the mean value of the data set, then
     multiplying that result by 100.
16
     Crashes are weighted by age and severity and whether hazardous materials are released.
17
     The value for the 75th percentile changes for each SafeStat run and across evaluation areas.


Findings and Recommendations                                                                                               18
    Table 4. Variations in Selected Accidents Reported Per Peer Group
       Peer
      Group             Number of Crashes              Approximate Cutoff
     Number                Reported                   Point of 75th Percentile
        2                    2 to 3                             .971
        3                    4 to 8                             .569
        4                   9 to 20                             .408

As shown, only one crash separated the peer groups, but the cutoff point for the
75th percentile in the peer groups varied widely. Thus, the peer group that a
carrier is placed in can affect the carrier’s SafeStat score. The cutoff point for peer
group 2 is .971 or about 70 percent higher than the cutoff point of .569 for peer
group 3. Only one “missing crash” can move a carrier to a different peer group
and result in differential treatment for the same crash rate. For example, a carrier
in group 3 with 4 reported crashes and a weighted accident rate of .569 is
considered deficient. The same carrier in group 2 with only 3 reported crashes,
has to reach a rate of .971 before being considered deficient.

The January 2003 SafeStat run showed 445 carriers in peer group 2 that had 3
crashes and weighted crash rates above .569, but below .971. These carriers were
not above the cutoff point for peer group 2; therefore, they would not be
considered high-risk in that evaluation area. However, 18 of the same carriers
were domiciled in Pennsylvania, Florida, or New Mexico—states that reported
“zero” crashes in the last 6 months of 2002. If any of the carriers had crashes in
those states during the last 6 months of 2002, and if the crashes had been reported,
the carriers probably would have been placed in peer group 3, where their
weighted crash rate of above .569 would have placed them above the 75th
percentile and in the high risk category.

Even within peer groups, additional crashes will increase a carriers rankings. For
example, if we hypothetically increased by 20 percent the number of crashes for 5
carriers that were part of the 65 carriers randomly selected within the different
peer groups, the percentile score of each carrier would increase from 2 to 10
percentile points. Additionally, one carrier would move from a 56 to a
67 percentile.

Such a jump in rankings would not affect FMCSA’s decision concerning a
compliance review, because the cutoff point is 75, and two areas must be deficient.
However, we found that users of SafeStat outside FMCSA may make decisions
based on values below 75 in a single evaluation area. For example, a carrier
scoring 67 versus 56 in the accident area would no longer be eligible to participate
in a Department of Energy program, because its published criteria would deem a
carrier unacceptable if it scored higher than 64 in the accident evaluation area.


Findings and Recommendations                                                        19
Given the incident of missing data, it is reasonable to conclude that a public
business making a decision based on SafeStat data, particularly if it relies solely
on the accident area, will obtain biased information depending on where the
carrier operates.

The effect of missing crashes on carrier rankings for specific geographic areas of
operation can be inferred from looking at changes in the rankings of groups of
carriers when crash reporting problems occur. As of January 2003, our review
showed that no large truck crashes in Pennsylvania had been reported to FMCSA
since December 2001. Our analysis of SafeStat scores for the period showed a 73-
percent decline in the number of Pennsylvania-domiciled carriers with deficient
values only in the accident area. At the same time, the number of Pennsylvania
domiciled carriers in categories A and B, which are affected by both accident and
non-accident safety data, declined by 44 and 35 percent, respectively.
Nationwide, the number of carriers in the accident only category declined by less
than 1 percent. We attribute this disparity not to the emergence of fewer high-risk
carriers from Pennsylvania, but to the underreporting of crashes in that state.

Such underreporting impacts more than just one state. Since SafeStat scoring
involves a relative ranking of one carrier against another based on available data,
missing data may place a carrier in a deficient category because data for a higher-
risk carrier is not included in the calculation. Additionally, for specific geographic
areas or states where underreporting of crashes is more severe, SafeStat may fail to
identify certain high-risk carriers simply because of where those carriers operate.
In addition, since carrier rankings for the accident area are publicly disseminated
via the Internet, some carriers may be excluded from consideration as high-safety
risks by the public users because they operate in states with low crash reporting.

Efforts to Improve Crash Reporting. FMCSA has recognized the problem with
states’ incomplete reporting of crashes. Officials attributed the problem to the fact
that FMCSA must rely on numerous local state jurisdictions to submit crash
reports. Additional problems are the states’ noncompliance with reporting
requirements and resource issues at the state level. Although our 1999 audit
recommended standardization in crash reporting and procedures, our current
review showed that differences persist in the treatment of items, such as how
federally-reportable crashes are recorded and what definitions are specified for
commercial vehicles. MCSIA took note of data collection problems regarding
crashes and directed FMCSA, in cooperation with NHTSA, to administer an
improved data program.

In implementing the MCSIA requirement, the two agencies exhibited different
viewpoints over what should be included in the improved data program. NHTSA
argued for the creation of an entirely new data system involving electronic coding



Findings and Recommendations                                                       20
of crashes with all states eventually participating, while FMCSA argued that the
focus should be on improving the current system and the data collection process.

Given these differing viewpoints, the data collection improvement efforts carried
out by the two agencies advanced slowly. Joint initiatives have included
establishing pilot programs in seven states and comparing fatal accidents involving
commercial vehicles recorded in each agency’s database to identify incomplete
information. However, the two agencies did not execute an agreement that
focused joint efforts on improving the existing FMCSA database for commercial
crashes until February 2003. The memorandum of understanding between the two
agencies has been followed up with a more specific project plan that establishes
specific short-term and long-term goals for the improvement of commercial
vehicle crash reporting in targeted states. In our opinion, because of the common
interest of NHTSA and FMCSA in obtaining complete and accurate crash data, the
two agencies should jointly address crash data issues as much as possible.

State-Reported Inspection Reports are Also Untimely and
Serious Moving Traffic Violations are Underreported
Although the rate of state inspection reporting was better than crash reporting, we
found it was also a problem. According to FMCSA reports, states on average
reported inspections in 35 days in 2002, versus the 21-day standard. More
significant, however, was state underreporting of serious moving traffic
violations18 observed in conjunction with roadside inspections. Approximately
240,000 such violations are reported nationwide each year in the FMCSA database
(the majority of which are for speeding). However, as with crashes, the states
reported these occurrences incompletely and inconsistently. For example:

• California reported only 115 serious moving violations to the FMCSA database
  in Fiscal Year 2001 even though the state ranked number one in the nation for
  the number of commercial vehicle miles traveled and the number of roadside
  inspections. Conversely, Indiana, a state with 2.7 times fewer commercial
  vehicle miles traveled and 8.6 times fewer inspections, reported about 25,000
  moving violations to FMCSA’s database in the same period.

• Pennsylvania reported 60 times more serious moving traffic violations than
  Illinois, although it conducts fewer inspections annually than Illinois and logs
  about the same number of commercial vehicle miles traveled.


18
     To evaluate the driver, SafeStat uses the following serious moving traffic violations: (1) failure to obey traffic
     control device; (2) following too closely; (3) improper lane change; (4) improper passing; (5) reckless driving;
     (6) speeding; (7) improper turn; (8) failure to yield right of way; (9) use or possession of drugs; and (10) use or
     possession of alcohol. SafeStat uses only those traffic violations that are indicated on the inspection reports
     completed by law enforcement personnel in conjunction with roadside inspections.


Findings and Recommendations                                                                                        21
Overall, 12 states reported serious moving traffic violations associated with
roadside inspections at a rate of 0.2 violations per million commercial vehicle
miles traveled while 13 other states reported rates more than 7 times higher.

Figure 2 depicts the wide discrepancy in the reporting of serious moving violations
per million commercial vehicle miles traveled per year across the states. As
shown, although the average rate per million miles is .84 (see dotted line), the rate
ranges from virtually 0 (less than .01) to 3.87.

      Rate per
                    Figure 2. Rate of Reporting for Serious Moving Traffic
 Million Miles          Violations Varies Across the States (2001 Data)
            4


          3.5


           3


          2.5


           2


          1.5


 0.84 AVG 1


          0.5


           0
                1   6     11     16     21     26     31    36     41     46     51

                                             STATES


The reasons for underreporting varied. In Illinois, our comparison of moving
violations cited on inspection reports with data on the same moving violations
maintained in the FMCSA database showed that FMCSA’s database did not
correctly reflect the violation codes cited by the Illinois law enforcement officers.
For example, a state police officer cited a specific speeding violation in his report,
but FMCSA listed it as a “general violation,” and it was not included in the
SafeStat calculation. This occurred numerous times because of the improper
conversion of data from the state database to the Federal database. FMCSA
identified the problem only after we checked the source documentation as part of
our review. In California, the low number of serious moving traffic violations was
attributed, in part, to the forms officers used in performing traffic enforcement



Findings and Recommendations                                                       22
inspections. In this case, the state forms, which were not automated, did not
include a specific place to record a Federal violation code, such as speeding.

Underreporting of moving traffic violations has less effect on SafeStat than crash
data, but it is still important. In January 2003, 74 percent of the highest-risk
carriers (category A) used state-reported crash data in the SafeStat calculation,
while only 11 percent partially used moving vehicle data to calculate the SafeStat
score. However, underreporting of serious moving traffic violations represents a
missed opportunity for targeting high-risk behavior, because a relationship has
been established between moving traffic violations and higher crash rates. In the
near term, FMCSA’s targeted review of moving traffic violations could reveal
reasons behind the disparities across states and promote corrective action. In the
long term, devising a means to directly collect citation information and
incorporating this information into SafeStat would be a significant enhancement to
the system.

Although timeliness of inspection reporting was better than with crash reports, it
was also a problem given the variation across the states. Based on FMCSA’s
quarterly reports, the time it takes to add or upload an inspection report to the
FMCSA database has varied from 32 days in 1999 to 35 days in 2002. However,
average figures across the nation are misleading because our analysis indicated
variations in the states’ reporting, which may influence SafeStat rank calculations.
Specifically, our analysis of a 4-year period (FY 1999 through FY 2002) showed
that:

• The overall average for inspections was 28 days as of November 2002.
  However, four states exceeded 60 days.

• Decreasing the average reporting time for inspections in three to four states
  with slow reporting times could improve the overall time by more than 20
  percent.

As with crashes, the reporting variation across states or regions can be expressed
statistically through the use of the coefficient of variation—a measure of how
much data values in a group vary from the average, expressed as a value between
0 and 100. For inspections, the coefficient of variation over the 4-year period
evaluated was more than 90, indicating that the data had an extreme variation.
(For more details on this analysis, see Exhibit B.) Given the variations across
states in the degree of and in the timeliness of reporting inspection violations, we
concluded that SafeStat calculations could be influenced by where a carrier
operates.




Findings and Recommendations                                                     23
Sampled Crash and Inspection Records Showed Material Errors
Affecting SafeStat
Complete and timely data are important, but accuracy is just as important to ensure
that the correct carrier is associated with the correct safety event data. To assess
the accuracy of data, we reviewed statistically selected crashes and inspections
contained in FMCSA records, for the period from July 1 through December 31,
2002.19 Based on our review, we made estimates regarding the proportion of crash
or inspection transactions that were not correctly reflected in SafeStat. We
counted as errors only those that could have a material effect on SafeStat. For
example, a mistake in the number of injuries reported would not be considered
material because the number of injuries is not a weighting factor in SafeStat—just
whether or not an injury or fatality occurs. We are 95-percent confident that the
estimates are correct plus and minus a margin of error.20 Our review showed that
material errors occurred that could influence SafeStat calculations. Specifically:

• Under the criteria established, we estimated that errors occurred in
  approximately 13 percent of the crash transactions and 7 percent of the
  inspection transactions reported on interstate carriers. For the 6-month period,
  we estimate that 2,851 of 21,225 crashes and 76,521 of the 1.02 million
  inspections reported contained material errors that could influence SafeStat.

• Out of an estimated 79,372 incorrectly reported safety events, we estimated
  that in 69,888 crashes or inspections reported, SafeStat did not hold the carrier
  accountable for the safety event and in 9,484 crashes or inspections reported,
  SafeStat erroneously held a carrier responsible.

Thus, about 89 percent of the errors excluded a safety event from a carrier’s record
that would have been used to calculate SafeStat scores and rankings. For example,
a crash in Louisiana involving three injuries was not included in the carrier’s
SafeStat calculation because, although the police report included a description of
the injuries, the data were not correctly entered into the database.




19
     Crash and inspection data were selected from FMCSA records as of January 8, 2003.
20
     We estimate a 13-percent error rate for crashes with a margin of error of plus and minus 6 percent; and we estimate a
     7-percent error rate for inspections with a margin of error of plus and minus 4 percent.




Findings and Recommendations                                                                                          24
The remaining 11 percent of the
estimated errors were of a “…about 89 percent of the errors excluded
different type. In these cases, a a safety event from a carrier’s record that
mistake resulted in a carrier being would have been used to calculate SafeStat
erroneously charged with a scores and rankings.”…
SafeStat related violation. For
example, a roadside incident in “[In] the remaining 11 percent of the
Indiana did not qualify as a crash errors…the mistake resulted in a carrier
under the Federal definition, but being erroneously charged with a SafeStat
it was erroneously reported as related violation.”
one because the definition was
incorrectly applied. We found
these data problems when we compared FMCSA records with source documents
in the states or when we requested validation of selected crash records from motor
carriers.

While the smallest in percentage terms, the most critical problems identified in the
sample from an individual carrier’s perspective are instances where carriers are
incorrectly held accountable for SafeStat related violations. This can lead to time
and expense to correct the problem and the possibility of a compliance review,
even if such action would not have occurred if the transaction had been accurately
recorded.

Errors due to “missing data” in which a carrier was not held accountable in
SafeStat have a less obvious impact on individual carriers. However, these errors
influence the entire system as one carrier’s scores may be higher than they should
be because missing data prevents carriers with more serious safety performance
data from gaining a higher relative ranking. Overall, the results indicate that it is
more likely that unsafe carriers would be identified as safe rather than safe carriers
being identified as unsafe. We did not attempt to determine whether these error
rates were consistent for different segments of the industry. Thus, the rates
identified may vary significantly among truckload, less-than-truckload, or
household goods carriers, or vary depending on the scope of carrier operations.
Additional errors that we could not identify on inspections could also exist given
the methodology we used. (See Exhibit B for details.)


Improving Data Quality Control Systems
Data deficiencies related to missing crash information, underreported moving
traffic violations, untimely reporting, and inaccuracies in crash and inspection
records exist because effective control systems and quality standards were not in
place at the Federal and state levels to provide reasonable assurance of data
quality. FMCSA has completed a number of actions with motor carriers and the


Findings and Recommendations                                                       25
states to address data quality issues. These include edit checks, reviews of state
MCSAP programs, incentive grants, and the addressing of data issues in the
annual commercial vehicle safety plans that the states submit to FMCSA.
However, actions in these areas can be improved.

Edit Checks. FMCSA used edit checks for identifying missing, invalid,
duplicate, inconsistent, or otherwise erroneous data; but current checks do not go
far enough and have not always worked properly. The current edit checks include
identification of incomplete fields and entries outside of acceptable ranges, and
match DOT numbers with carrier names. More sophisticated checks for logic and
reasonableness that would detect data anomalies between reporting periods were
not in place, although plans were underway for developing such checks.

Oversight Reviews. Even when perfectly implemented, computer edit checks of
records cannot identify all the problems that relate to improper entry from source
documents, such as those we found in our analysis of moving traffic violations and
crashes. To find these problems, FMCSA will need to conduct or have the states
conduct quality reviews of controls and source documentation.

FMCSA is required to conduct regular reviews of state programs that, in part,
address data quality; however, it is not conducting the reviews regularly, and
neither are the states. FMCSA’s state offices are required to conduct program
reviews at least every 3 years to address the states’ implementation of grants
provided through MCSAP. The reviews are to include grant expenditures, data
quality and timeliness, and program effectiveness. Only 3 of the 10 states we
reviewed had completed the required MCSAP reviews.

Given the data quality issues we identified, the frequency and depth of FMCSA’s
reviews of state MCSAP programs should be increased. In addition, FMCSA’s
reviews should be modified so that they regularly and uniformly address data
quality issues and include tests to identify improper data entry from source
documents. Alternatively, occasional focused reviews could be done so that
nationwide issues can be addressed in a timely manner. A prime candidate for this
review would be problems with the reporting of serious moving traffic violations.
Based on our results, the inclusion of procedures comparing the accuracy of data
to source documents would be a useful element in these reviews. Such reviews by
FMCSA could also encourage better state reviews. Of the 10 states we reviewed,
5 did not conduct quality reviews of safety event data transmitted to FMCSA.

Incentive Grants. To promote data quality, FMCSA established incentive grants
to states. These grants, however, are too limited in scope. An FMCSA
rulemaking published in March 2000 recognizes that the collection of complete,
accurate, and timely accident data is vital to reducing fatalities and accidents. As
such, the rulemaking provides for incentive grants to the states for meeting upload


Findings and Recommendations                                                     26
requirements established for crash and inspection reports. However, the focus of
those incentive grants is on timeliness alone, not on other aspects of quality, such
as accuracy and completeness. Based on the accuracy and completeness problems
we have identified, we opine that incentives should also be developed to promote
improvement in these areas. Where needed, changes should be made to FMCSA
guidelines or policy to accomplish this as well as appropriate use of high priority
MCSAP funding for data quality purposes.
State Plans. An additional mechanism for promoting improved data quality,
which has not been fully utilized, is the annual commercial vehicle safety plan that
the states submit to FMCSA under MCSAP. Neither the rulemaking nor FMCSA
guidance requires states to submit plans with specific actions and milestones to
improve the completeness and consistency of state reported crashes and other
safety data. In our view, taking action in this area would improve the accuracy of
SafeStat data and thus increase public confidence when making business
decisions.


FMCSA’s Plan in Response to DOT Guidelines is a Positive Step,
but is not Sufficient
In response to DOT Information Dissemination Quality Guidelines, issued on
October 1, 2002, FMCSA has prepared several proposals for improving the quality
of safety data. Issued in response to the Office of Management and Budget
guidelines directing agencies to “substantiate the quality of the information it has
disseminated,” DOT’s guidelines have been cited as a benchmark standard for data
quality assurance and recommended as a template for evaluating the data quality
programs of other agencies.21

FMCSA has developed a draft plan to implement the DOT guidelines. In addition,
FMCSA has presented and developed proposals for improved data correction and
monitoring, recognizing that SafeStat scores fall into a category of information
labeled “influential data.”22 Such data require stricter quality standards because
public and private decisionmakers use the data. Although the draft plan is a
positive step, FMCSA should add elements to the plan addressing data quality
standards, correction procedures, missing data, and disclosure of data issues to
fully implement DOT’s guidelines regarding information quality.

Data Quality Standards. FMCSA's plan requires that methods be investigated
and developed to improve the timeliness, completeness, and accuracy of safety

21
     Center for Regulatory Effectiveness, March 2003.
22
     Influential in this context means that the agency can reasonably determine that dissemination of the
     information will have or does have a clear and substantial impact on important public policies or
     important private sector decisions.


Findings and Recommendations                                                                         27
data. However, the plan does not address requirements for completeness,
timeliness, and accuracy although such data requirements are included in the DOT
guidelines. For example, the DOT guidelines cite an illustrative data requirement
for the Fatality Analysis Reporting System (FARS), a database within NHTSA
that contains fatality information associated with motor vehicle crashes. The
example includes a timeliness standard of 3 months, a standard error rate of 6
percent, and a coverage rate of 90 percent. The DOT guidelines point out that
decisions on the data requirements should be based on how the information will be
used in decisionmaking. In our opinion, a similar data requirement for FMCSA
crashes is needed, at a minimum, to address coverage rates for crash reports, the
timeliness of reports, and the reliability or precision of the data. Following
preliminary discussions on our audit findings, FMCSA has moved to develop
standards and has indicated its adoption of several quality standards specific to
crash data.

Improving Data Correction Procedures to Allow Timely Correction of
Errors. Based on the October 2002 guidelines, DOT has established a mechanism
to receive and monitor requests for correction of information. The system is part
of DOT’s Docket Management System, and thus may be used for all DOT data.
As of August 2003, 87 of 92 requests for data correction involved SafeStat data
items. Although the Docket Management System provides a central location for
carriers to transmit requests for correction, the system has limited ability to
directly correct errors. FMCSA’s response to carriers with data problems related
to state-reported crashes and inspections is that carriers must deal with individual
states.

FMCSA recognizes a need to do more to facilitate the correction of errors in
SafeStat data. To accomplish this, an improved, Internet-based system for tracking
data correction requests is under development, with a prototype undergoing testing
and expected to be available to the states by February 2004. This system is
designed to automatically provide correction requests to state offices and to track
the status of requests through resolution. Our audit work supports the
establishment of such an Internet-based system as a means of facilitating
correction of inaccuracies in state reported data. Although we found that errors
resulting in a carrier being erroneously charged with a SafeStat-related violation
were infrequent, such mistakes do occur and implementing a system for correcting
this information as soon as possible is important.

FMCSA standards issued in 1996 call for the correction of data inaccuracies
within 7 days, but we have no evidence of FMCSA enforcing this standard at the
state level. Based on our survey of state officials, the number of current requests
for corrections being handled by the states cannot be tracked reliably. Although
all states received requests to correct inaccurate data, 80 percent did not track the


Findings and Recommendations                                                      28
number of requests received, and 84 percent did not track the number of requests
that resulted in data being changed by the state.

Address the Impact of Missing Data. The DOT guidelines note the need to
regularly evaluate “bias due to missing data or coverage bias.” As discussed
previously, examples of this type of data problem include (1) states having no
reported crashes, (2) states in particular regions of the country underreporting
crashes, (3) significant variations in the reporting of serious moving violations, (4)
substantial numbers of carriers reporting power unit data that are incomplete, and
(5) failure to report updated information. FMCSA’s plan should address what
degree to which missing data can impact SafeStat calculations. Given public
disclosure of SafeStat data and the potential competitive disadvantage that can
result if rankings are influenced because certain states are not reporting safety
events, addressing bias is important.

Disclosure of Data Quality. Openness is a key element of the DOT guidelines on
dissemination of information. The DOT guidelines favor analysis which allows
qualified members of the public to independently re-analyze data. This openness
includes both the reporting of information sources and the limitations of the actual
reporting. The Internet site discloses the potential negative impact on SafeStat
scores when carriers do not provide up-to-date information on the motor carrier
census forms. However, the SafeStat Internet site did not provide information on
the known limitations in safety event data on crashes and inspections that states
report. Increased visibility and awareness of limitations in state reported data
would allow users to make informed choices about the use of the data and perhaps
encourage individual states to improve the quality of the data they use for
SafeStat. Openness would also be encouraged by allowing industry and the public
to comment on proposed changes in SafeStat, which could be useful in minimizing
unexpected results from system changes. Following the issuance of our draft
report, FMCSA placed a more comprehensive disclaimer on the Internet site, and
promised to add information on the timeliness, accuracy, and completeness of data
from each state.


Conclusion
Although we support SafeStat’s continued use as an internal risk management
tool, the types and magnitude of data problems we found argue for immediate and
effective action to correct data problems. The most serious concern is the
continued public dissemination of motor carrier rankings for the accident
evaluation area given the incompleteness of crash data.

We recognize that FMCSA relies on state officials to generate and process much
of the safety event data used in SafeStat and that this presents many challenges for


Findings and Recommendations                                                       29
obtaining complete, timely, consistent, and accurate data.                However,
improvements are needed to increase the quality and reliability of the data SafeStat
uses, which will improve SafeStat’s effectiveness as an internal risk management
tool and permit continued public dissemination of SafeStat information.


RECOMMENDATIONS
We recommend that the Federal Motor Carrier Safety Administrator:

B1.   Take immediate action to mitigate the impact of inaccurate or incomplete
      data on public users of SafeStat by:

      a. Making available to all states an improved system for facilitating the
         correction of data inaccuracies and the tracking of corrective actions
         within 3 months following the issuance of this report.

      b. Disclosing data problems, including variations in state reporting, to
         public users of SafeStat.

B2.   As expeditiously as possible, establish an overall data quality improvement
      program that:

       a. Addresses longstanding issues associated with motor carrier census
          data by imposing fines on carriers that fail to provide updated carrier
          census information despite repeated opportunities to do so.

       b. Sets minimum standards for the quality of SafeStat data consistent with
          the Department’s data quality guidelines. At a minimum, the standards
          should address completeness, accuracy, and timeliness of data.

       c. Accomplishes actions planned, in conjunction with NHTSA, for
          improving the completeness and timeliness of state-reported crashes.

       d. Enhances the depth, frequency, and type of FMCSA state data quality
          reviews and monitoring, and ensures state plans address data quality.

       e. Modifies FMCSA guidance and funding decisions so that MCSAP
          incentive grant awards are based, in part, on each state’s
          implementation of guidelines established to provide accurate,
          complete, and timely safety event data.




Findings and Recommendations                                                     30
MANAGEMENT COMMENTS AND OFFICE OF INSPECTOR
GENERAL RESPONSE
In responding to a draft of this report, FMCSA agreed with our concerns for
improving data quality and cited a number of improvements already implemented
or ongoing to address the recommendations in the report. FMCSA did not agree
with all of our assertions regarding the impact of data quality problems on
SafeStat. FMCSA’s substantive comments on the report’s findings are provided in
the Appendix along with the full text of a matrix FMCSA provided on January 14,
2004, detailing actions planned or underway to address each report
recommendation.

• FMCSA Comments. FMCSA stated that the language in the draft report
  overstated the problem of out-of-date census data on SafeStat, and that it
  would be preferable to present the data problems in terms of how they affect
  SafeStat rankings. Our report states that 42 percent of the 643,909 active
  carriers have not updated their census data. In contrast, FMCSA stated that
  over 80 percent of the carriers with sufficient data for SafeStat to evaluate have
  updated their data. FMCSA also noted that since the implementation of a new
  Motor Carrier Management Information System (MCMIS) in September 2002,
  carriers cannot obtain new DOT numbers with census data showing zero
  drivers or vehicles.

• OIG Response. We do not agree that the language in the draft report
  overstated the problem of out-of-date census data; but we provided additional
  information in this final report to present the full context of the problem.
  According to our calculation, of the approximately 170,000 carriers that had
  percentile values calculated in SafeStat for one or more of the four safety
  evaluation areas as of January 2003, 31 percent had not updated census data in
  the required 2-year period. In addition, 17 percent of motor carriers with 2 or
  more crashes over a 30-month period had not updated their census data. In our
  opinion, even if one is concerned only with the 17 percent of carriers with 2 or
  more reported crashes, the magnitude of out-of-date census data shows that it
  is a significant problem. Moreover, given our findings on crashes that are not
  reported, we are also concerned about the census reports from carriers
  without 2 or more reported crashes. On the issue of improvements in controls
  since September 2002, our analysis of the FMCSA database shows that as of
  January 2003, more than 800 carriers receiving DOT numbers in the 4 months
  since the introduction of the new MCMIS still showed zero total drivers and
  about 1,600 showed zero vehicles.

• FMCSA Comments. FMCSA took issue with our statement that “data
  problems limit SafeStat’s effectiveness and introduce bias into the ranking


Findings and Recommendations                                                     31
   process.” Although agreeing that data quality problems could limit SafeStat’s
   effectiveness to identify all high-risk carriers, officials objected to the
   implication that “some identified high-risk carriers may not actually be high-
   risk because of data problems.” FMCSA stated that its information indicates
   the data problems are much more likely to make a poor performing carrier look
   good.

• OIG Response. We agree with FMCSA that data quality problems are more
  likely to make a high-risk carrier look good. However, we continue to
  maintain that the opposite situation can also occur. Since SafeStat scoring
  involves a relative ranking of one carrier against another, missing data may
  place a carrier in a deficient category because data for a higher-risk carrier is
  not included in the calculation. Missing crash data was most significant with
  six states failing to report any crashes for the 6 months analyzed. Nationwide,
  estimates for the underreporting of large trucks involved in crashes varied in
  magnitude with some states underreporting 60 percent or more and other states
  estimated to be underreporting of less than 20 percent. In addition, our review
  of sampled crash and inspection records estimated that 11 percent of the
  estimated errors found resulted in a carrier being erroneously charged with a
  SafeStat violation. The report’s discussion of different thresholds for high-risk
  carriers within different peer groups (Finding B) illustrates how a single
  erroneously charged crash could affect a carrier’s ranking.

FMCSA also provided specific comments on Recommendations B1 and B2,
detailing a number of corrective actions planned or ongoing to expeditiously
establish an overall data improvement program. FMCSA comments and OIG
responses are summarized below.

• Recommendation B1a. FMCSA plans to implement a new electronic system
  for filing concerns about Federal and state data released to the public by
  February 29, 2004. This system will simplify the existing process and provide
  a mechanism for FMCSA, the states and the public to track data challenges.

• Recommendation B1b. FMCSA plans to add clear and comprehensive
  guidance to Internet users as to the limitations of SafeStat data and provide
  information on each state’s data quality. On January 22, 2004, FMCSA posted
  its initial statement on data limitations on the Internet and stated that this
  guidance would be enhanced later by adding information on the timeliness,
  accuracy, and completeness of data from each state.

• Recommendation B2a. FMCSA reported that stronger notices to carriers on
  filing biennial updates to census data started on January 1, 2004. It will also
  develop a plan for addressing missing respondents.



Findings and Recommendations                                                    32
• Recommendation B2b. FMCSA will develop a comprehensive data quality
  plan during FY 2004. The plan will include contracting for a sample
  verification of source documents; identifying additional edit checks;
  conducting training sessions on data quality issues; assigning staff to monitor
  state reports; and reviewing analysis on biennial update rates. It will also set
  quality goals for timeliness, completeness, and accuracy as part of the
  Commercial Vehicle Analysis Reporting System (CVARS) program.

• Recommendation B2c. FMCSA reported providing CVARS grants to 22
  states in 2003 to improve crash data reporting and expressed plans to expand
  state participation in CVARS.

• Recommendation B2d. FMCSA will assign a person to review the monthly
  state reports on timeliness, non-match, and traffic enforcement reports and to
  work with states to resolve the issues.

• Recommendation B2e.             FMCSA offered an alternative to our
  recommendation that incentive grants be based on each state’s implementation
  of data quality guidelines. FMCSA plans to make the granting of high priority
  MCSAP grants to states contingent on a state’s participation in the electronic
  tracking system for data challenges.

We consider the FMCSA comments on Finding B to be positive and constructive.
However, we request that FMCSA clarify whether its commitment to work with
states to resolve data issues (proposed in response to Recommendation B2d) will
include carrying out our recommendation to ensure that state plans address data
quality. We also request clarification on whether its proposed action for
Recommendation B2b will be a one-time or an ongoing task. In our opinion, such
reviews should be conducted periodically to ensure data integrity.

Additionally, we request specific target dates for these actions:

• Enhancing the recently instituted guidance to Internet users as to the limitation
  of SafeStat data by including information on the timeliness, accuracy, and
  completeness of data from each state (Recommendation B1b),

• Developing a plan for obtaining missing census updates from carriers who
  have not responded to earlier requests for this information (Recommendation
  B2a),

• Including more states within CVARS (Recommendation B2c), and




Findings and Recommendations                                                    33
• Assigning staff to review monthly state reports on timeliness, non-match, and
  traffic enforcement reports and to working with states to resolve the issues
  (Recommendation B2d).




Findings and Recommendations                                                34
EXHIBIT A. ACTIVITIES VISITED OR CONTACTED

SITE VISITS CONDUCTED

Federal Motor Carrier Safety Administration (FMCSA)
   FMCSA Headquarters, Washington, DC
   FMCSA State Division Offices in Virginia, Wisconsin, California, Georgia,
   Indiana, Illinois, Louisiana, Montana, Pennsylvania, New Mexico, Texas, and
   Washington
   FMCSA Eastern Regional Office, Baltimore, Maryland

Research and Special Projects Administration, John A. Volpe
National Transportation Systems Center, Cambridge,
Massachusetts

National Highway Traffic Safety Administration (NHTSA)

State Officials
   Department of California Highway Patrol, Information Processing Group
   Georgia Department of Motor Vehicle Safety Enforcement Unit
   Illinois State Police Division of Operations Commercial Vehicle Unit
   Indiana State Police Commercial Vehicle Enforcement
   Louisiana State Police Transportation and Environment Safety Section
   Montana Motor Vehicle Inspection Bureau, Montana Highway Patrol
   New Mexico Department of Public Safety, Motor Transportation Division
   Pennsylvania Department of Transportation, Bureau of Maintenance and
   Operations
   Texas Department of Transportation, State Patrol Motor Carrier and Inspection
   Services
   Virginia Department of Transportation, State Police Motor Carrier Safety
   Wisconsin Department of Transportation
   Washington State Patrol Motor Carrier and Inspection Services

OTHER CONTACTS
   American Trucking Association


Exhibit A. Acti vities Visited or Contacted                                  35
   Representatives of Selected Motor Carrier and Insurance Industry
   Motor Carrier Safety Assistance Program Points of Contact at States




Exhibit A. Acti vities Visited or Contacted                              36
EXHIBIT B. AUDIT METHODOLOGY
Details on the methodology we used to assess the SafeStat model, data quality
issues, and data quality control systems are provided below.


SAFESTAT MODEL
We reviewed the validity of SafeStat by discussing the basis for the model with its
developers at the John A. Volpe National Transportation Systems Center (Volpe)
in Cambridge, Massachusetts. We reviewed relevant documentation related to
SafeStat’s original development, including records on meetings held with
stakeholders and a 1998 Effectiveness Study conducted by Volpe staff. We
consulted with technical experts on the general practices used during model
development and analyzed available data on the characteristics of motor carriers
identified as high risk using SafeStat. Our efforts to confirm the model's validity
and its effectiveness in putting potential unsafe carriers in proper categories were
limited because data used in the 1998 study of the model’s effectiveness were not
available for our independent assessment.

Additionally, we determined whether values calculated and posted on the Internet
were consistent with the Model’s design. To conduct this test we selected a
random sample of 65 carriers that had received a SafeStat value in at least 1 of 4
(out of a possible 10) safety measures. Then, using Microsoft Excel software we
re-created the calculations for the four measures as an independent confirmation of
their accuracy. We selected the following four SafeStat measures for testing.

• Accident Involvement

• Recordable Accident Rate

• Driver Review

• Driver Inspections

We discussed the controls that were in place at Volpe and FMCSA to verify that
the calculations done during each SafeStat run were consistent with the model’s
design. We confirmed the information provided by examining the programming
tools used to perform these validations.




Exhibit B. Audit Methodology                                                     37
DATA QUALITY
To estimate the occurrence of data quality problems in SafeStat and to make
nationwide projections, we used data obtained from DOT organizations, selected
motor carriers, and state offices. We conducted two-stage statistical sampling in
which we first selected 10 states for review and then selected for examination
crash and inspection reports from those 10 states covering the period July 1,
through December 31, 2002. Details on the selection of states, the estimates of
material errors in crash and inspection reports, and other analyses conducted are
discussed below.

State and Sample Selection. To select the 10 states, we first used FY 2001
Fatality Analysis Reporting System data obtained from NHTSA to rank the states
by the number of large truck-related fatalities recorded. The 51 states were then
stratified into groups with stratum 1 containing the most fatalities and stratum 4
the least. Sample states were then selected at random from each stratum with a
larger proportion selected from states with the greatest number of fatalities.

In each of the 10 states selected, a sample of crash and inspection records for a 6-
month period was extracted from Motor Carrier Management Information System
records as of January 8, 2003. The Army Audit Agency’s Statistical Sampling for
Auditors software, version 6.3, was used to estimate sample sizes that allow for
estimates with 95-percent confidence. From among the sample records, carriers
identified as interstate carriers were selected for review. A sample of 392 crash
records and 400 inspection records were evaluated. In 2 of the 10 states selected,
Pennsylvania and New Mexico, no crash records were available for the sample
period, so samples were selected from earlier periods and imputed to the sample
period.

Review of Sample Items. During our review of the sample, two general types of
material errors were identified:

• Type 1 errors, where a carrier was incorrectly reported as:

   (a)    either being involved in a crash or

   (b)    held accountable for an out-of-service violation or a serious moving
          traffic violation.

• Type 2 errors, where a carrier was involved in a crash or had incurred an out-
  of-service violation, or serious moving traffic violation, but this information
  was not properly recorded in SafeStat.

After we identified errors of reporting and non-reporting, we passed the results to
a statistical consultant for analysis and projection. The statistical consultant used


Exhibit B. Audit Methodology                                                      38
analysis formulas1 consistent with the sample design used to perform the analyses,
such as, stratified primary stage weights and secondary stage weights. Stratified
primary stage weights involved the number of states in the population by stratum.
Secondary stage weights involved the use of the total number of crashes or
inspections performed in those states on interstate carriers for the 6- month period
of the study. The resulting estimates and projections included both the proportion
and number of errors for 6 months worth of crashes and inspections. Each
estimate is accompanied by the statistical margin of error due to sampling.

With a 95-percent confidence level, we estimated that 13.4 percent of all crashes
reported nationwide are reported incorrectly. The margin of error for that estimate
is plus and minus 6 percent. Type 1 errors are estimated to occur about
1.4 percent of the time, with a statistical margin of error of plus and minus
1.4 percent. Type 2 errors are estimated to occur about 12 percent of the time,
with a statistical margin of error of 5.2 percent. (Given the nature of the
calculation, the statistical margin of error figures do not add to the overall margin
of error.) The statistical estimates for errors in the reporting of crashes are in
Table B1.

                                   Table B1. Estimates of Errors
                                    in the Reporting of Crashes

                    Error Type                              Projection of Error
                                                              (by percentage)

           Overall errors                     13.4 percent plus and minus 6
                                              percent

           Type 1 errors                      1.4 percent plus and minus 1.4
                                              percent

           Type 2 errors                      12 percent plus and minus 5.2
                                              percent



With a 95-percent confidence level, we estimated that 7.5 percent of all inspection
results reported nationwide are reported incorrectly. The margin of error on that
estimate is plus and minus 4 percent. Type 1 errors are estimated to occur about
0.9 percent of the time, with a statistical margin of error of plus and minus 0.9
percent. Type 2 errors are estimated to occur about 6.6 percent of the time, with a

1
    "Elementary Survey Sampling", 5th edition; Scheaffer, Mendenhall and Ott; Duxbury Press (International
    Thompson), 2000. - chapter 9 for the two-stage sampling methodology and chapter 4 for the stratification
    methodology.


Exhibit B. Audit Methodology                                                                            39
statistical margin of error of plus and minus 3.8 percent. (Note: Given the nature
of the calculations, the statistical margin of error figures do not add to the overall
margin of error.) The statistical estimates for errors in the reporting of inspection
results are in Table B2.

                          Table B2. Estimates of Errors
                          in the Reporting of Inspections

              Error Type                       Projection of Error
                                                (by percentage)

        Overall errors              7.5 percent       plus   and    minus 4.0
                                    percent

        Type 1 errors               0.9 percent plus and minus 0.9
                                    percent

        Type 2 errors               6.6 percent plus and minus 3.8
                                    percent



Although the various error estimates were calculated from data statistically
sampled from only 10 of 51 states, the sampling process employed two stages with
stratified random selection made during the first stage and simple random
selection made during the second stage, which produced a valid estimation across
all 51 states.

Our analysis does not permit us to estimate the degree to which errors have
affected carriers’ SafeStat rankings. SafeStat-related violations attributed to the
wrong carrier will increase the calculated measure and possibly increase the
overall SafeStat score of that carrier. The carrier responsible for the violation will
experience a lower calculated measure and possibly a lower overall SafeStat score.
To determine the possible effect these errors may have on the overall score of both
carriers requires a recalculation of scores using corrected data. Before the
recalculation, someone in FMCSA would have to identify carriers and manually
correct erroneous data in FMCSA’s motor carrier database. We did not pursue
further analysis to estimate the impact to rankings for the errors identified in our
sample, because we, along with Volpe officials, determined it would not be
possible to attribute estimated errors to a specific carrier or carriers.

For inspections, we relied on information in the inspection report to determine
whether the out-of-service violation was valid. Thus, if a report incorrectly
identified a leasing company as the motor carrier inspected, but the matching DOT


Exhibit B. Audit Methodology                                                       40
number was provided, we would not detect the error unless some additional
information on the inspection report led us to detect the problem. FMCSA has
estimated that as many as 20 percent of reports involving leasing arrangements
provide inaccurate DOT numbers, but it did not have documentation to
substantiate this estimate. This area should receive additional scrutiny to assess
the degree to which leasing arrangements contribute to improperly assigned safety
events or the degree to which certain sectors may have experienced error rates
above those found in our sample and the degree to which public disseminated data
is affected by these errors.

Sample of Compliance Review and Enforcement Data. To test the degree to
which information on compliance reviews and closed enforcement cases were
correctly reflected in the database used for SafeStat calculations, we selected a
sample of compliance reviews from each of the 10 states visited and compared the
information with violations and enforcement actions from the database.

Analysis of Motor Carrier Management Information System Data. We
obtained and independently analyzed data from the Motor Carrier Management
Information System as of January 8, 2003. The data included information on
state-reported crashes and inspections conducted since October 1, 2001, and
operational data on active motor carriers reflected in the census files.

Identification of Crash and Inspection Issues. We also discussed state-specific
crash and inspection reporting issues with state and FMCSA officials at the 10
states visited. To obtain additional records on crashes, we sent letters to 132
motor carriers requesting validation of selected information in FMCSA records on
crashes reported in the 10 sampled states. We obtained additional information on
crashes and inspections conducted from FY 1999 to FY 2002 from FMCSA,
NHTSA, and states not sampled. The reports and data assisted us in the analysis
of data consistency and trends.

Analysis of Variation. Because SafeStat is a relative ranking system, problems
with untimely data would not seriously impact the rankings if the data were
consistently late across all states. Each carrier’s ranking would just be relatively
higher. However, geographic bias is introduced in the rankings to the degree that
untimely data varies from place to place. We analyzed variations in the timeliness
of reported crash and inspection information through the use of the coefficient of
variation, a basic measure of dispersion. The coefficient of variation is obtained
by dividing the standard deviation by the mean value of the data set, then
multiplying that result by 100.

This single number provides an indicator of the consistency of the data. When the
value is 25, this indicates a normal or standard distribution for the variation.
When the value is 60 or 70, the variation is high, suggesting biased outliers in the


Exhibit B. Audit Methodology                                                     41
data. Table B3 shows how timely states were in reporting inspection and crash
data to FMCSA from FY 1999 through FY 2002.

            Table B3. Variability in Timeliness of Data Reporting Across States
                                (FY 1999 through FY 2002)
                      Indicator                        Coefficient of                 Interpretation
                                                        +Variation
             Timeliness of Reporting                        76.58                     High Variation
                    Crashes
             Timeliness of Reporting                        90.59                   Extreme Variation
                   Inspections



The variation across states for timeliness is high or extremely high, for each of the
indicators above. The variability within regions2 is less than across states. This
indicates the impact of the variations may be less for carriers that operate within
one geographic region. Conversely, the impact for carriers operating across
regions could be greater. However, we did not attempt to estimate the impact of
reporting variation based on patterns of operation.


DATA QUALITY CONTROL SYSTEMS
To determine whether FMCSA data quality control systems were adequate for
their intended uses, we reviewed guidelines issued by DOT on the dissemination
of data and compared the guidelines to systems in place or planned by FMCSA.
We also observed quality control systems in the states we visited and assessed
selected areas, such as data entry controls, correction of erroneous data, NHTSA
and FMCSA cooperation to improve data, standardization of reporting, and
concerns over public availability of data.


AUDIT PERIOD AND ASSESSMENT OF COMPUTER-
GENERATED DATA
The audit was conducted from November 2002 through January 2004 in
accordance with Government Auditing Standards prescribed by the Comptroller
General of the United States and included tests of internal controls as were
considered necessary.

2
    For this analysis, a region refers to areas sharing common attributes. A typical region consists of about four to six
    contiguous states.


Exhibit B. Audit Methodology                                                                                         42
In the conduct of this audit, we used computer-generated data from SafeStat
system developers at Volpe, the FMCSA Motor Carrier Management Information
System, the 10 states visited, and NHTSA. We did not assess the general and
application controls for each of the automated systems. We conducted selected
tests of the data that included checks to ensure the data provided from FMCSA’s
database were complete and data verification procedures were in place at Volpe.
In our opinion, when the data are viewed in the context with other available
evidence, the results and conclusions in the report are valid.




Exhibit B. Audit Methodology                                                43
EXHIBIT C. PRIOR AUDIT COVERAGE
One Office of Inspector General (OIG) audit, issued in 1999, and two General
Accounting Office (GAO) audits, issued in 1999 and 1997, have addressed topics
related to SafeStat.

OIG Report: Motor Carrier Safety Program, Federal Highway Administration,
Report Number TR-1999-091, April 26, 1999. We found that the existing
organization, Office of Motor Carrier (OMC), was not sufficiently effective in
ensuring that motor carriers complied with safety regulations. The existing
enforcement program did not adequately deter noncompliance. Additionally,
SafeStat could not target all carriers with the worst records, because OMC’s
database was incomplete and inaccurate, and data input was not timely. The
report made the following recommendations for improving the data used to
regulate the motor carrier industry:

• Require applicants requesting operating authority to provide the number of
  commercial vehicles they operate and the number of drivers they employ and,
  require all motor carriers to periodically update this information.

• Revise the grant formula and provide incentives through Motor Carrier Safety
  Assistance Program (MCSAP) grants for states to provide accurate, complete,
  and timely commercial vehicle crash data, vehicle and driver inspection
  reports, and traffic violation data.

• Within a reasonable notification period, such as 1 year, withhold MCSAP grant
  funds from those states that continue to report inaccurate, incomplete, and
  untimely commercial vehicle crash data, vehicle and driver inspection data,
  and traffic violation data.

• Initiate a program to train local enforcement agencies in reporting crash
  roadside inspection data including associated traffic violations.

• Standardize OMC and NHTSA crash data requirements, crash data collection,
  and reports.

• Obtain and analyze crash causes and fault data as a result of comprehensive
  crash evaluations to identify safety improvements.


GAO Report: Truck Safety: Motor Carrier Office Hampered by Limited
Information On Causes of Crashes and Other Data Problems, RCED-99-182,


Exhibit C. Prior Au dit Coverage                                            44
June 29, 1999. GAO found that OMC has not been effective in reducing fatalities
resulting from crashes involving large trucks because it knows too little about the
causes of crashes or the factors that contribute to them. The report noted that
OMC had not corrected longstanding problems with the information it uses, such
as information that identifies high-risk carriers. In addition, no reliable nationwide
data existed on the causes of crashes involving large trucks.

GAO Report: Commercial Motor Carriers: DOT is Shifting to Performance–
Based Standards to Assess Whether Carriers Operate Safely, RCED-98-8,
November 3, 1997. GAO found that the new SafeStat system was designed to
better identify problem carriers, but it was dependent on the states to provide
complete, accurate, and timely data on recordable accidents and the results of
roadside inspections and compliance reviews. GAO observed that some states
lacked adequate data, particularly for accidents. Such gaps in the reported data,
according to the report, can change a carrier’s score, thus affecting SafeStat’s
reliability. GAO recommended the development of alternative approaches in
states with inadequate data, but the Department disagreed because the
development of separate processes for different states would be ineffective and
impractical.




Exhibit C. Prior Au dit Coverage                                                   45
EXHIBIT D. MAJOR CONTRIBUTORS TO THIS
REPORT
THE FOLLOWING INDIVIDUALS CONTRIBUTED TO THIS REPORT.



Name                           Title

Barbara M. Cobble              Program Director

Joseph W. Come                 Project Manager/Program Director

James W. Bess                  Senior Management and Program Analyst

David W. Brown                 Senior Management and Program Analyst

Alvin B. Schenkelberg          Senior Auditor

John M. Hannon                 Senior Management and Program Analyst

Richard Hatcher                Auditor

Calvin L. Moore                Management and Program Analyst

Christopher T. Brothers        Management and Program Analyst

Constance B. Hardy             Management and Program Analyst

Petra Rose                     Statistician

William E. Savage              Information Technology Specialist

Dr. Francis M. Ponti           Consultant

Harriet E. Lambert             Writer/Editor

Janice Alger                   Senior Auditor

Wayne White                    Auditor




Exhibit D. Major Contributors to This Report                           46
APPENDIX. MANAGEMENT COMMENTS
A draft of this report was provided to FMCSA on December 10, 2003. In its
response, FMCSA provided technical and editorial comments on the draft report
as well as substantive comments on the report’s findings. The substantive
comments by FMCSA on the draft report’s findings are provided verbatim below.
(FMCSA’s specific references to the draft report are shown in italics prior to its
comments.) The Appendix also includes the full text of a matrix provided by
FMCSA on January 14, 2004 detailing actions planned or underway to address
each report recommendation. Where appropriate we made modifications in this
final report to reflect FMCSA’s comments.

Executive Summary, page ii: The report states: “SafeStat is also used by some
states to link carrier safety performance to vehicle registration, and as a decision
aid by State commercial vehicle safety inspectors to select vehicles for inspection.
Public uses for SafeStat include providing information to individuals making
contract award or acquisition decisions and monitoring the performance of
drivers within a company.”

Comment: While SafeStat was developed and tested during the Performance and
Registration Information Systems Management (PRISM) pilot, SafeStat itself is
not used to “link carrier performance to vehicle registration” sanctions. We are
concerned that some State motor carrier associations have the mistaken impression
that PRISM States will take registration action on a carrier’s International
Registration Plan plates, based solely on its SafeStat score. As such, some State
motor carrier associations have been reluctant to support PRISM. We request that
the language in the report be clarified to avoid these potential misconceptions.

Comment: The statement “. . . and monitoring the performance of drivers within a
company” might give the impression that individual driver performance data (i.e.
driver names, etc.) is available online to the public. Because that is not the case,
we request that the report language be clarified.

Executive Summary, page iii: the first bullet under “Results in Brief” highlights
the apparent fact that 42 percent of the 643,000 active carriers have not updated
their census data.

Comment: While we share your concern for out-of-date data, we believe that the
language in the report tends to overstate the problem—in relation to SafeStat.
Therefore, it would be preferable to present the data problems in terms of how
they affect SafeStat rankings. Please note that, for carriers that have generated
data sufficient to be evaluated by SafeStat, over 80 percent have updated data.


Appendix. Management Comment s                                                   47
Comment: On the issue of zero vehicles/zero drivers, since the implementation of
“new MCMIS” (September 2002), carriers cannot obtain new DOT numbers with
entries of zero vehicles or zero drivers. Also, the Bienniel Update process allows
us to identify and correct errors on existing carrier data, and we continue to
explore additional ways to improve the accuracy of these records.

Executive Summary, page v: Under “Data Quality Weaknesses” the report states:
“FMCSA should take action to improve data quality because significant problems
exist with the data motor carriers and the states provide, and these data problems
limit SafeStat’s effectiveness and introduce bias into the ranking process.

Comment: We share your concern that data quality problems could limit
SafeStat’s effectiveness to identify all high-risk carriers. However, we believe
that the existing language in the report could be misconstrued to imply that some
identified high-risk carriers may not actually be high-risk because of the data
problems. We cannot agree with this implication and we request that the language
in the report be clarified.

Executive Summary, page vii: Under the bullet: “Ineffective Systems for
Facilitating Data Correction by the States.” The report states: “Accuracy
challenges will be increasingly important because SafeStat scores are now
calculated and released monthly, versus the earlier practice of releasing scores
semiannually.”

Comment: We are concerned that this implies that monthly update of SafeStat
scores makes an improved data correction process more urgent. Rather, we
believe monthly update of SafeStat scores should be recognized as a data quality
improvement. Now, when a carrier updates its census data and gets an inaccuracy
corrected, its SafeStat score will show an improvement in 30 days or less, instead
of up to 6 months later.

Executive Summary, page viii: In the paragraph preceding the “summary of
recommendations,” the report states: “Correcting data quality problems are
critical to ensure the effective targeting by SafeStat of high-risk carriers for
compliance reviews.”

Comment: Based on information in other parts of the report that conclude SafeStat
is effective for targeting high-risk carriers for compliance reviews, we suggest the
report language be slightly modified as follows: “Correcting data quality
problems are critical to ensure more comprehensive targeting by SafeStat of high-
risk carriers for compliance reviews.”

Page 8, second paragraph: The report states: “Although SafeStat’s original
development effort considered the views of industry stakeholders, such views have


Appendix. Management Comment s                                                   48
not been solicited for subsequent changes, such as those affecting how power unit
numbers are calculated.”

Comment: The FMCSA’s Analysis & Information online site that displays
SafeStat data to the public has a feedback mechanism whereby the industry and
public can offer suggestions on improvements. In fact, the majority of SafeStat
changes, including the change related to how power units are calculated, have
originated from industry and other stakeholder feedback.

Page 12, middle paragraph: The report states: “When motor carriers and the
States provide insufficient data it creates an unknown degree of bias in SafeStat’s
ranking of motor carriers and limits SafeStat’s effectiveness as a tool for
identifying the highest risk carriers.”

Comment: While we share your concern for improving data quality, we did not
note any evidence in the report to substantiate the assertion that the data problems
limit SafeStat’s effectiveness as a tool for identifying the “highest risk carriers.”
We request that the statement be modified to read, “. . . limit SafeStat’s
effectiveness as a tool for identifying all high risk carriers.”

Pages 13-14: Language regarding crash data issues and census data issues.

Comment: Please see our comment on Executive Summary, page v. In addition, a
long-term solution is the above-noted PRISM program, which will eventually help
increase data update frequency for active carriers that register through the
International Registration Plan (IRP). Through PRISM, carriers are forced to
update their MCS-150 data as part of their license plate renewal process unless it
has been updated in the last year. Thirty-two states now have grant agreements to
implement PRISM.

Page 24, last paragraph before the paragraph titled “Improving Data Quality
Control Systems,” the report states: “Errors due to “missing data” in which a
carrier was not held accountable in SafeStat have a less obvious impact on
individual carriers. However, these errors influence the entire system as one
carrier’s scores may be higher than they should be because missing data prevents
carriers with more serious safety performance data from gaining a higher relative
ranking. Overall, the results indicate that it is more likely that safe carriers would
be identified as unsafe rather than unsafe carriers being identified as safe.”

Comment: While we share your concern for improved data quality, we do not
note any evidence in the report to substantiate the assertion that data problems
make good carriers look bad. Rather, our information indicates that the data
problems are much more likely to make a poor performing carrier look good.



Appendix. Management Comment s                                                     49
[The following comment, not referenced to any specific draft report findings or
recommendation, was also included in FMCSA’s comments.]

In December 2003, FMCSA’s ASPEN software was modified to collect better
moving violation data. These changes greatly facilitate enforcement personnel’s
ability to select specific moving violation codes from a categorized list.
Moreover, FMCSA recently provided a grant to the State of California to begin
using the ASPEN software.




Appendix. Management Comment s                                              50
                        [January 14, 2004 Matrix from FMCSA Addressing Draft Report Recommendations]

     OIG Recommendations                                                           FMCSA Position
A1. Initiate an effectiveness study of the        Already planned.
current model that tests the model’s key
parameters,     assesses     possible    model
adjustments to account for missing data, and      FMCSA has an independent analysis contractor on board to revalidate the SafeStat
evaluates whether the use of vehicle miles        model. The study should begin in early 2004.
traveled or adjustments for team drivers would
improve SafeStat calculations. The results of
the study should be subjected to independent
review by a party outside of Volpe.

A2. Establish processes for soliciting public     We believe FMCSA has an effective public comment process.
comment on proposed changes in SafeStat
calculations, to include those changes, if any,
resulting from the revised effectiveness study.   FMCSA’s Analysis & Information online site that displays SafeStat data to the public
                                                  has a feedback mechanism whereby the industry and public can offer suggestions on
                                                  improvements. In fact, the majority of SafeStat changes have originated from industry
                                                  and other stakeholder feedback. FMCSA will explore the feasibility of using the
                                                  existing feedback mechanism on A&I to solicit public comment on proposed changes.




Appendix. Management Comment s                                                                                                        51
B1. a. Take immediate action to mitigate the       Already underway and in progress.
impact of inaccurate or incomplete data on
public users of SafeStat by making available
to all States an improved system for               In late January 2004, FMCSA will implement the DataQs system, an electronic means
facilitating the correction of data inaccuracies   for filing concerns about Federal and State data released to the public by FMCSA.
and the tracking of corrective actions within 3
months following the issuance of this report.      Through this system, data concerns are automatically forwarded to the appropriate
                                                   office for resolution. This system will simplify the existing process and provide a
                                                   mechanism for FMCSA, the States, and the public to track data challenges. In addition,
                                                   monthly update of SafeStat scores should be recognized as a data quality improvement.
                                                   Now, when a carrier updates its census data and gets an inaccuracy corrected, its
                                                   SafeStat score will show an improvement in 30 days or less, instead of up to 6 months
                                                   later.
B1. b. Take immediate action to mitigate the       FMCSA will add clear and comprehensive guidance for web users as to the limitations
impact of inaccurate or incomplete data on
public users of SafeStat by disclosing data        of the data by the end of January 2004. We will further enhance this guidance by
problems, including variations in State            adding information on each State’s timeliness, accuracy, and completeness.
reporting, to public users of SafeStat.




Appendix. Management Comment s                                                                                                          52
B2. a. As expeditiously as possible, establish   Already in progress.
an overall data quality improvement program
that addresses longstanding issues associated
with motor carrier census data by imposing       Beginning January 1, 2004, all reminder notices sent to motor carriers about filing their
fines on carriers that fail to provide updated   biennial update will contain the following statement: “Even if the information has not
carrier census information despite repeated
opportunities to do so.                          changed or your company is no longer in business (or no longer operating commercial
                                                 vehicles in interstate commerce), we need you to file this update. Please note that,
                                                 under 49 CFR 390.19(e), failure to file a new and accurate Form MCS-150 may result
                                                 in the imposition of a civil penalty of up to $550 for each offense. Each day the
                                                 violation continues constitutes a separate offense, and the total penalty for all offenses
                                                 related to a single violation may reach $5,500.” In January 2003, to help improve the
                                                 response rate of the bienniel update, FMCSA provided an easy way for carriers to
                                                 update their census data online. Currently, 40 percent of carriers are providing updates
                                                 in this manner. We also developed a plan for addressing the missing respondents and
                                                 are weighing implementation options. In addition, FMCSA’s New Entrant program
                                                 meets with each new motor carrier within the first 18 months of operations and
                                                 conducts a safety audit. In this audit, census data is verified and updated. If the new
                                                 entrant fails to pass the safety audit, the USDOT number is revoked.




Appendix. Management Comment s                                                                                                            53
B2. b. As expeditiously as possible, establish   While we agree with OIG’s concern for data quality, we cannot agree with all of your
an overall data quality improvement program
that sets minimum standards for the quality of   assertions as to the impact of data problems on SafeStat.
SafeStat data consistent with the Department’s
data quality guidelines. At a minimum, the       FMCSA is undertaking a continuous data quality process, including developing a
standards should address completeness,
accuracy, and timeliness of data.                comprehensive data quality plan in FY 2004. Some of the planned components of this
                                                 process include: (1) awarding a contract to conduct a sample verification of source
                                                 documents (inspections and crashes) against what is uploaded; (2) coordinating with
                                                 OIG to identify additional edit checks, (3) conducting training sessions at FMCSA’s IT
                                                 Workshop that specifically address data quality issues, (4) assigning a person in
                                                 FMCSA to review the monthly timeliness, non-match, and traffic enforcement reports
                                                 by State to identify problems and work with the States to resolve them, and (5) review
                                                 recently completed analysis on improving the biennial update response rate. FMCSA
                                                 has set data quality goals for timeliness, completeness and accuracy of crash data as
                                                 part of the Commercial Vehicle Analysis Reporting System (CVARS) program.
B2. c. As expeditiously as possible, establish   Already underway.
an overall data quality improvement program
that accomplishes actions planned, in
conjunction with NHTSA, for improving the        In early Summer 2003, FMCSA provided grants to 22 States under the Commercial
completeness and timeliness of state-reported    Vehicle Analysis Reporting System (CVARS) program, to improve their crash data
crashes.
                                                 reporting. We recently found that 11 of these States had shown a marked increase in
                                                 the completeness of crash data reporting. We continue to include more States in
                                                 CVARS, and have established goals for accuracy, timeliness, and completeness.
                                                 Through training and data system improvements, we expect the States to make
                                                 significant strides in the quality of crash data reporting.




Appendix. Management Comment s                                                                                                        54
B2. d. As expeditiously as possible, establish   While we agree with OIG’s concern for data quality, we cannot agree with all of your
an overall data quality improvement program
that enhances the depth, frequency, and type     assertions as to the impact of data problems on SafeStat.
of FMCSA State data quality reviews and
monitoring, and ensures State plans address      As noted above, part of our continuous data quality process will involve assigning a
data quality.
                                                 person in FMCSA to review the monthly timeliness, non-match, and traffic
                                                 enforcement reports by State to identify problems and work with the States to resolve
                                                 them.
B2. e. As expeditiously as possible, establish   While we agree with OIG’s concern for data quality, we cannot agree with all of your
an overall data quality improvement program
that modifies FMCSA guidance and funding         assertions as to the impact of data problems on SafeStat.
decisions so that MCSAP incentive grant
awards are based, in part, on each State’s       In addition, we cannot agree with the specific approach of penalizing States for data
implementation of guidelines established to
provide accurate, complete, and timely safety    problems, because we believe that withholding funds may lead to a reduced level of
event data.                                      enforcement. In the alternative, we believe that providing incentive funding to States
                                                 will assist them in improving data quality reporting processes. In fact, receiving high
                                                 priority MCSAP grants will be tied to participation in the DataQs system. This
                                                 information was sent out in mid-January to each MCSAP agency.




Appendix. Management Comment s                                                                                                         55
     Textual Translation of Figures in the Report
A text only description of figures in the report is provided below.

Estimate of Underreporting of Large Trucks Involved in Crashes
by State (2001 Data)

Figure 1, located on page 17 of the Report, provides a map showing estimates of
the underreporting of large trucks involved in crashes by state (based on 2001
data). The map indicates the following.

In the states of Arkansas, District of Columbia, Florida, Georgia, New Hampshire,
New Mexico, Rhode Island, Tennessee, and Virginia, it is estimated that 60
percent or more of large trucks involved in crashes will not be reported to the
Federal Motor Carrier Safety Administration (FMCSA).

In the states of California, Iowa, Louisiana, Maine, Nevada, North Carolina, South
Dakota, Vermont and West Virginia, it is estimated that between 40 and 59
percent of large trucks involved in crashes will not be reported.

In the states of Alabama, Colorado, Idaho, Illinois, Indiana, Kansas, Maryland,
Massachusetts, Michigan, Mississippi, Montana, Oregon, North Dakota, Nebraska,
New York, Oklahoma, Pennsylvania, South Carolina and Texas, it is estimated
that between 20 and 39 percent of large trucks involved in crashes will not be
reported.

In the states of Arizona, Delaware, Kentucky, Minnesota, Missouri, New Jersey,
Ohio, Rhode Island, Utah, Washington, Wyoming, and Wisconsin, it is estimated
that less than 20 percent of large trucks involved in crashes will not be reported.

The overall estimates of 50-percent for the Southern and 20-percent for the
Midwestern regions consist of the following states. The Southern region includes
Alabama, Arkansas, Florida, Georgia, Kentucky, Louisiana, Mississippi, New
Mexico, North Carolina, Oklahoma, South Carolina, Tennessee, and Texas. The
Midwestern region includes Illinois, Indiana, Iowa, Kansas, Michigan, Minnesota,
Missouri, Nebraska, Ohio, and Wisconsin.




Textual Tr ansl ation of Figures in the Report                                  56
Rate of Reporting for Serious Moving Traffic Violations Varies
Across the States (2001 Data)
The information below provides the textual translation for Figure 2, located on
page 22 of the Report. The information on variances in reporting for serious
moving traffic violations provided in Figure 2 is the following.

The chart shows that the average number of serious moving traffic violations per
million commercial vehicle miles reported by each state is .84.

The chart indicates there is a wide discrepancy in the reporting of serious moving
traffic violations per million commercial vehicle miles number reported from state
to state. The chart divides the states into groups alphabetically with the first group
representing the first six states Alabama, Alaska, Arizona, Arkansas, California,
and Colorado. The states in this group reported at rates of 3.87, .07, .8, 1.24, 0,
and 1.28 violations per million commercial vehicle miles as compared to the
average of .84.

The second group, states 7 through 11 reported at rates of .56, .41, .03, .52 and .82
as compared to the average of .84.

The third group, states 12 through 16 reported rates of 0, .89, 0, 2.56 and .95 as
compared to the average of .84.

The fourth group, states 17 through 21 reported at rates of 2.45, 1.5, 2.35, .49, and
.66 as compared to the average of .84.

The fifth group, states 22 through 26 reported at rates of 1.75, 1.39, .63, .24, and
.65 as compared to the average of .84.

The sixth group, states 27 through 31 reported at rates of 3.62, 1.23,.19, .18 and
.18 as compared to the average of .84.

The seventh group, states 32 through 36, reported at rates of 2.39, .17, .81, 1.2,
and .6 as compared to the average of .84.

The eighth group, states 37 through 41, reported at rates of .47, 2.84, .25, 1.62, and
1.24 as compared to the average of .84.

The ninth group, states 42 thru 46, reported at rates of .6, 2.25, .04, .18, and .72 as
compared to the average of .84.




Textual Tr ansl ation of Figures in the Report                                      57
The tenth group, states 47 thru 51, reported at rates of .15, 3, .83, .79, and 1.55 as
compared to the average of .84.




Textual Tr ansl ation of Figures in the Report                                     58
